NO. 20-

In the
Supreme Court of the United States
DAVID ABRAM ANAYA,
Petitioner,
V.

BOBBY LUMPKIN,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
GINGER D. ANDERS
ADELE M. EL-KHOURI
Counsel of Record
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVENUE NW
SUITE 500 E
WASHINGTON, DC 20001
(202) 220-1100
ADELE.EL-KHOURI@MTO.COM
Counsel for Petitioner

i
QUESTION PRESENTED
In Missouri v. Frye, 566 U.S. 134 (2012), and Lafler
v. Cooper, 566 U.S. 156 (2012), this Court held that a
defendant who rejects a proffered plea deal as a result
of counsel’s deficient performance may demonstrate
prejudice by showing that there is a reasonable probability that the defendant would have accepted the plea
and, as particularly relevant here, that there is no
“particular fact or intervening circumstance” suggesting that the plea would have been withdrawn by the
prosecution or rejected by the trial court. In this case,
however, the Fifth Circuit held that a petitioner under
28 U.S.C. § 2254 may not prevail on a Lafler/Frye
claim even where the record contains no reason to
think that the plea would have been withdrawn or rejected and the State does not dispute that fact. Breaking from three other circuits, and acknowledging that
Petitioner had “compelling arguments,” the court held
that Frye and Lafler are unclear as to whether a defendant must present some sort of additional, “affirmative proof”—beyond his uncontested characterization
of the record—that excludes every possible reason that
the plea might have been withdrawn or rejected. The
question presented is:
Whether this Court’s decisions clearly establish
that a defendant can show he was prejudiced by his
counsel’s deficient performance causing him to reject a
plea offer where the defendant contends without contradiction by the State that the record reveals no particular facts or intervening circumstances suggesting
that the State would have withdrawn, or the trial court
would have rejected, the plea.

ii
PARTIES TO THE PROCEEDING
Petitioner here, Petitioner-Appellant below, is
David Abram Anaya.
Respondent here, Respondent-Appellee below, is
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division.
RELATED PROCEEDINGS
The proceedings directly related to this case are:
•

Anaya v. Lumpkin, No. 18-11203, U.S. Court of Appeals for the Fifth Circuit. Judgment entered September 25, 2020. Rehearing denied November 12,
2020.

•

Anaya v. Davis, No. 2:15-CV-234, U.S. District
Court for the Northern District of Texas, Amarillo.
Judgment entered August 30, 2018.

•

Petition for Writ of Certiorari, Anaya v. Texas, 136
S. Ct. 195 (2015) (No. 15-5166). Judgment entered
October 5, 2015.

•

Anaya v. Texas, Nos. WR-80, 336-01 & WR-80, 33602; Texas Court of Criminal Appeals (Collateral Review). Judgment entered April 8, 2015.

•

Anaya v. Texas, Nos. 59,854-02-A & 59,877-02-A;
47th District Court of Texas (Collateral Review).
Judgment entered March 12, 2015.

•

Anaya v. Texas, Nos. 07-10-00462-CR & 07-1000463-CR, Texas Court of Criminal Appeals (Direct
Review). Judgment entered March 12, 2014.

iii
•

Anaya v. Texas, Nos. 07-10-00462-CR & 07-1000463-CR, Court of Appeals of Texas (Direct Review). Judgment entered August 15, 2012.

•

Texas v. Anaya, Nos. 59,854-A & 59,877-A, 47th
District Court of Texas. Sentenced October 7, 2010.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED ........................................... i
PARTIES TO THE PROCEEDING ............................ ii
RELATED PROCEEDINGS........................................ ii
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ............................... 1
INTRODUCTION ........................................................ 2
STATEMENT............................................................... 5
REASONS FOR GRANTING THE PETITION ........ 12
I.

This Court Should Review the Court of
Appeals’ Outlier Holding That Lafler
and Frye Require Section 2254
Petitioners to Proffer Additional,
“Affirmative Proof” That the Plea Would
Have Been Entered ......................................... 14
A.

The Court Of Appeals’ Decision
Conflicts with the Decisions of
Multiple Other Circuits........................ 15

B.

The State Court’s Decision, as
Affirmed by the Fifth Circuit’s
Outlier Holding, is Contrary to,
and an Unreasonable Application
of, Clearly Established Law ................. 18

v
TABLE OF CONTENTS
(continued)
C.

Page

This Case is a Good Vehicle to
Resolve
an
Important
and
Recurring Question Under Lafler
and Frye ................................................ 24

CONCLUSION .......................................................... 26
APPENDICES
Appendix A: Opinion of the United States Court
of Appeals for the Fifth Circuit (September 25,
2020) .......................................................................... 1a
Appendix B: Order of the United States District
Court for the Northern District of Texas
(August 30, 2018) .................................................... 21a
Appendix
C:
Magistrate’s
Findings,
Conclusions And Recommendation To Deny
Petition For A Writ of Habeas Corpus of the
United States District Court for the Northern
District of Texas (August 3, 2018).......................... 23a
Appendix D: Denial of Rehearing by the United
States Court of Appeals for the Fifth Circuit
(November 12, 2020) ............................................... 62a

vi
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Bell v. Cone,
535 U.S. 685 (2002) .............................................. 18
Brumfield v. Cain,
576 U.S. 305 (2015) .............................................. 25
Cooper v. Lafler,
376 F. App’x 563 (6th Cir. 2010) ...................passim
Cooper v. United States,
660 F. App’x 730 (11th Cir. 2016) .................. 15, 16
Cullen v. Pinholster,
563 U.S. 170 (2011) ........................................ 18, 23
Faison v. United States,
650 F. App’x 881 (6th Cir. 2016) .......................... 16
Lafler v. Cooper,
566 U.S. 156 (2012) .......................................passim
Missouri v. Frye,
566 U.S. 134 (2012) .......................................passim
Padilla v. Kentucky,
559 U.S. 356 (2010) .............................................. 21
Roe v. Flores-Ortega,
528 U.S. 470 (2000) .............................................. 23
Sears v. Upton,
561 U.S. 945 (2010) .............................................. 21

vii
TABLE OF AUTHORITIES
(Continued)
Page(s)
Strickland v. Washington,
466 U.S. 668 (1984) .......................................passim
United States v. Dickerson,
546 F. App’x 211 (4th Cir. 2013) .................... 16, 17
Wiggins v. Smith,
539 U.S. 510 (2003) ........................................ 21, 25
Williams v. Taylor,
529 U.S. 362 (2000) .................................. 18, 21, 25
Wood v. Allen,
558 U.S. 290 (2010) .............................................. 25
FEDERAL STATUTES
28 U.S.C. § 1254(1) ...................................................... 1
Antiterrorism and Effective Death
Penalty Act of 1996 (AEDPA), Pub.
L. 104-132, 110 Stat. 1214 (codified
at 28 U.S.C. § 2254 and 28 U.S.C. §
2255)...............................................................passim
STATE STATUTES
Tex. Penal Code Ann. § 9.31 ........................................ 5
Tex. Penal Code Ann. § 9.32 ........................................ 5

viii
TABLE OF AUTHORITIES
(Continued)
Page(s)
OTHER AUTHORITIES
Darryl K. Brown, Lafler, Frye and Our
Still-Unregulated Plea Bargaining
System, 25 Fed. Sent. Rep. 131 (2012) ................ 22
Carissa Byrne Hessick, Proving
Prejudice for Ineffective Assistance
Claims After Frye, 25 Fed. Sent. Rep.
147 (2012) ............................................................. 22
Criminal Justice Standards for the Prosecution Function 3-5.6 (Am. Bar
Ass’n 4th Ed. 2017), available at
https://www.americanbar.org/groups/criminal_justice/standards/ProsecutionFunctionFourthEdition/ ...................................................... 21
Joel Mallord, Putting Plea Bargaining
on the Record, 162 U. Pa. L. Rev. 683
(2014) .................................................................... 22
Report & Recommendations, Cooper v.
United States, 2:11-CV-14429, Dkt.
No. 45 (S.D. Fla. Mar. 28, 2013) .......................... 16
Andrea Kupfer Schneider & Cynthia
Alkon, Bargaining in the Dark: The
Need for Transparency and Data in
Plea Bargaining, 22 New Crim. L.
Rev. 434 (2019) ..................................................... 22

ix
Texas Disciplinary Rules of Professional
Conduct 3.09 (Feb. 26, 2019), available at https://www.texasbar.com/AM/Template.cfm?Section=News_and_Publications_Home&ContentID=27271&Template=/CM/ContentDisplay.cfm .................................................... 21
Jenia Iontcheva Turner, Effective
Remedies for Ineffective Assistance,
48 Wake Forest L. Rev. 949 (2013) ...................... 22

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully petitions for a writ of certiorari to the United States Court of Appeals for the Fifth
Circuit.
OPINIONS BELOW
The opinion of the court of appeals, Pet. App. 1a, is
reported at 976 F.3d 545. The order of the court of appeals denying panel rehearing, Pet. App. 62a, is not
reported. The opinion of the district court, Pet. App.
21a, and the findings, conclusions, and recommendation of the magistrate judge, Pet. App. 23a, are not reported.
JURISDICTION
The judgment of the court of appeals was entered
on September 25, 2020. The petition for panel rehearing was denied on November 12, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Sixth Amendment to the United States
Constitution provides, in relevant part: “the accused
shall . . . have the Assistance of Counsel for his
defence.”
The Antiterrorism and Effective Death Penalty Act
of 1996 (AEDPA), Pub. L. 104-132, 104, 110 Stat. 1214,
1219 (codified at 28 U.S.C. § 2254), provides in
relevant part:
(d) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted with
respect to any claim that was adjudicated on the

2
merits in State court proceedings unless the
adjudication of the claim—
(1) resulted in a decision that was contrary to,
or involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.
INTRODUCTION
This case presents a recurring question that has
divided the courts of appeals: how a defendant
claiming that his counsel’s deficient performance
caused him to reject a plea offer can show that he was
prejudiced because the prosecution would not have
withdrawn, and the trial court would not have
rejected, the plea. This Court has already applied
Strickland’s prejudice standard—a “reasonable
probability” that the outcome would have been
different but for counsel’s misadvice—in the context of
rejected pleas. In Missouri v. Frye and Lafler v.
Cooper, the Court held that in order to show prejudice
from a plea rejected as a result of counsel’s deficient
performance, a defendant must show that: (1) he
would have accepted the plea offer but for counsel’s
deficient performance, (2) the plea would have been
entered without the prosecution canceling it or the
trial court refusing to accept it, and (3) the conviction
or sentence, or both, under the offer’s terms would
have been less severe than under the judgment and
sentence that in fact were imposed. 566 U.S. at 147;
566 U.S. at 164. The Court further explained that the
second prong—the only prong of the prejudice analysis
at issue here—is not meant to pose an insurmountable

3
barrier to relief: “[I]n most instances it should not be
difficult to make an objective assessment as to
whether or not a particular fact or intervening
circumstance would suffice, in the normal course, to
cause
prosecutorial
withdrawal
or
judicial
nonapproval of a plea bargain.” Frye, 566 U.S. 134,
149 (2012); see also Lafler, 566 U.S. at 164.
Following that guidance, several courts of appeals
have found that, if there are no particular facts or
intervening circumstances in the record indicating
that the prosecution may have withdrawn the plea or
the trial court may have rejected it, then a defendant
has shown there is a reasonable probability that the
plea would have been entered.
In this case, where Petitioner asserted that the
record reveals no particular facts or intervening
circumstances suggesting the State would have
withdrawn the plea or the trial court would have
rejected it, and the State did not contest the accuracy
of that characterization, the Fifth Circuit broke from
those other courts of appeals. Falling back on the
deferential standard of review set forth in 28 U.S.C. §
2254, the Fifth Circuit held that because Frye’s
standard is “not so clear,” Mr. Anaya’s uncontested
characterization of the trial record was insufficient in
the absence of undefined “affirmative proof” of the
absence of any possible reason that the plea might
have been withdrawn or rejected. Pet. App. 17a-20a.
The Fifth Circuit did not attempt to define what type
of evidence would constitute such “affirmative proof.”
The decision below is an outlier among the courts
of appeals, and it upholds a state-court decision that is
contrary to, and an unreasonable application of, this
Court’s clearly established precedent. In Lafler itself,
the Court expressly approved the Sixth Circuit’s

4
conclusion that the defendant had established
prejudice largely on the basis of his own testimony—
without requiring the defendant to produce
affirmative evidence of the absence of any possible fact
or circumstance that could potentially have led the
plea to be withdrawn or rejected.
That is the same showing that Petitioner made
here. He reviewed the entirety of the record—
including the plea offer, the trial briefing and
transcripts, and the State appellate and postconviction
records—and explained that it contained none of the
particular facts or intervening circumstances courts
have identified as indicating the plea would have been
withdrawn or rejected. See Appellant’s Br. 39-41;
Appellant’s Reply Br. 19-23. The State did not contest
that assertion or identify any facts or circumstances to
the contrary. See Pet. App. 17a; Appellee’s Br. 27-29.
Yet, contrary to Lafler, Frye, and multiple other
circuits, the Fifth Circuit said that was not enough.
Pet. App. 17a-20a. It is entirely unclear—and neither
the Fifth Circuit nor the State attempted to define (Pet
App. 17a)—what further, “affirmative proof” would be
required or sufficient to meet the Lafler/Frye standard.
Indeed, it is difficult to imagine what more could be
required: Speculating as to all other possible facts or
circumstances and arguing that those are not present
in the record either? Seeking extra-record, non-public
evidence such as data on other plea offers in the
defendant’s jurisdiction, the State’s rate of
withdrawing plea offers, or the trial court’s rate of
rejecting plea offers? It is even more difficult to
imagine how a prisoner in state court proceeding pro
se could find such evidence. In practice, then, the state
court’s decision, as affirmed by the Fifth Circuit,
imposes an insurmountable burden to show prejudice

5
in the context of a plea offer that was rejected due to
counsel’s misadvice.
The Court should grant review to address this
circuit conflict and harmonize application of a
recurring question under Frye and Lafler.
STATEMENT
1. In 2009, Petitioner David Anaya (“Mr. Anaya”)
was indicted in Texas on charges of murder and assault with an aggravated weapon. Pet. App. 1a. The
state offered Mr. Anaya a plea bargain with concurrent sentences of 30 years for the murder charge and
15 years for the aggravated assault charge. Pet. App.
2a; 20a n.75. Because Mr. Anaya had previously been
convicted of two felonies, he was a felon in possession
of a firearm at the time of the offense conduct. Pet.
App. 8a. The state’s plea offer therefore listed, and
took into account, Mr. Anaya’s prior felony convictions.
See Electronic Record on Appeal 1391-92 (5th Cir.
Sept. 18, 2018).
From the outset, Mr. Anaya did not deny the underlying facts charged in the indictment—he admitted
that he shot the victim. Pet. App. 2a-3a. He believed,
however, that he had acted in self-defense. Id. Because self-defense was the only issue in the case, Mr.
Anaya’s discussions with his counsel centered on the
viability of his self-defense claim. Id.; id. at 11a.
2. Under Texas law, a defendant’s reasonable act
of self-defense is a defense to the offenses of murder
and aggravated assault with a deadly weapon. Tex.
Penal Code Ann. §§ 9.31; 9.32 (West 2007). With respect to the duty to retreat, as the Fifth Circuit explained, the statute provides that in certain circumstances the defendant need not retreat, prohibits a
factfinder in those circumstances from considering

6
whether the defendant failed to retreat, and requires
the factfinder to presume that the defendant acted reasonably in using force. Pet. App. 7a. In other circumstances, however, the statute provides that the factfinder may consider the defendant’s failure to retreat,
and may not presume that the defendant acted reasonably in using force. Pet. App. 8a. Because Mr. Anaya
was a felon in possession of a firearm at the time of the
offense, it was indisputable that the jury could consider his failure to retreat, and that his belief that
deadly force was necessary would not be presumed
reasonable. Pet. App. 8a.
3. As the Fifth Circuit further held, although the
governing statute, and the application of the law to the
facts of Mr. Anaya’s case, were entirely clear, counsel
misadvised Mr. Anaya that his failure to retreat “did
not matter or make a difference” for his self-defense
claim. Pet. App. 8a. On that understanding of the law,
Mr. Anaya rejected a plea offer from the state. Pet.
App. 8a-9a.
Predictably, the centerpiece of the state’s case was
that because he was in a car at the time he shot the
victim, Mr. Anaya easily could have retreated, and his
failure to do so was fatal to his self-defense claim. Pet.
App. 8a. The jury convicted Mr. Anaya on both counts
and sentenced him to 40 and 99 years respectively—
effectively a life sentence. Pet. App. 20a n.75.
4. a. Mr. Anaya filed a direct appeal of his
convictions and sentences in Texas court. Pet. App. 3a.
The state intermediate appellate court affirmed Mr.
Anaya’s convictions. Id. The Texas Court of Criminal
Appeals (“TCCA”) refused both of Mr. Anaya’s
petitions for discretionary review, and Mr. Anaya did
not seek certiorari review by this Court. Id.

7
b. Mr. Anaya sought collateral review of his convictions by filing an application for state habeas corpus, claiming, as relevant here, that his trial counsel
rendered ineffective assistance by misadvising him on
the law of self-defense and the duty to retreat thereby
causing him to reject the state’s plea offer. Pet. App.
3a.
In support of his application, Mr. Anaya submitted
affidavits from himself, his wife, and his father and
mother, “each of which support[ed] his assertion that
he would not have rejected the plea if he knew his
failure to retreat would be presented to the jury.” Pet.
App. 8a. And although Mr. Anaya’s counsel submitted
an affidavit addressing other claims made by Mr.
Anaya, Pet. App. 8a, the affidavit “didn’t even attempt
to refute the accusation that he failed to correctly
inform Anaya about the role of retreat,” Pet. App. 9a.
The TCCA denied Mr. Anaya’s application without
written order, Pet. App. 32a, and this Court denied Mr.
Anaya’s petition for certiorari in his state habeas case,
Pet. App. 3a. Mr. Anaya also filed a subsequent application for state habeas corpus, which the TCCA denied
as successive. Pet. App. 3a.
c. Mr. Anaya then sought collateral review in
federal court, contending that he received ineffective
assistance of counsel in plea negotiations. A defendant
claiming ineffective assistance of counsel during plea
negotiations must show that (1) “counsel’s
representation fell below an objective standard of
reasonableness,” and (2) “there is a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Lafler, 566 U.S. at 162–63. To show a
reasonable probability that the result of the
proceeding would have been different, a defendant

8
must show that (1) he would have accepted the plea
offer but for counsel’s deficient performance, (2) the
plea would have been entered without the
prosecution’s canceling it or the trial court’s rejecting
it, and (3) the conviction or sentence, or both, under
the offer’s terms would have been less severe than
under the judgment and sentence that in fact were
imposed. Lafler, 566 U.S. at 147; Frye, 566 U.S. at 164.
Here, the district court, adopting the magistrate
judge’s findings and conclusions, rejected Mr. Anaya’s
claim of ineffective assistance of counsel. Pet. App.
21a. The district court assumed Mr. Anaya’s counsel
rendered deficient performance, but held that Mr.
Anaya failed to show he was prejudiced by that
deficient performance. Pet. App. 45a. Specifically, the
district court held that it was “questionable” whether
Mr. Anaya would have accepted the plea offer, “[b]ased
on [his] insistence at trial of no wrong doing on his part
and that he was justified in using deadly force against
the victim.” Pet. App. 47a.
The district court also held that Mr. Anaya failed
to demonstrate a reasonable probability that the plea
would have been entered without the prosecution’s
withdrawing it or the trial court’s rejecting it, because
“the record is silent as to this issue.” Pet. App. 48a.
Finally, the district court found that Mr. Anaya
could make the showing that there was a reasonable
probability that but for counsel’s errors the result of
the proceeding would have been different, because Mr.
Anaya received 40- and 99-year sentences instead of
15- and 30-year sentences. Pet. App. 49a n.12.
d. The Fifth Circuit granted Mr. Anaya a certificate of appealability on his claim that he received ineffective assistance of counsel when his counsel misadvised him on a central point of Texas law, thereby

9
causing him to reject his plea offer and receive a significantly longer sentence at trial. Pet. App. 3a-4a.
As to counsel’s deficient performance, the Fifth
Circuit held that it had “no trouble concluding that Mr.
Anaya satisfied § 2254(d)’s heavy burden on
Strickland’s performance prong.” Pet. App. 19a.
Counsel’s “performance was deficient and there can be
no reasonable argument otherwise,” Pet. App. 11a, the
court held, because Mr. Anaya’s “whole defense was
self-defense,” self-defense “was the only issue at trial,”
and counsel’s misadvice on the duty to retreat meant
that Mr. Anaya “couldn’t fully understand the risks of
rejecting the State’s plea offer because he didn’t know
that his status as a felon in possession of a weapon
would move the goalpost at trial,” Pet. App. 11a-12a.
As to the first prong of the prejudice inquiry—
whether Mr. Anaya would have accepted the State’s
plea offer—the Fifth Circuit explained that Mr. Anaya
submitted affidavits from himself, his wife, his father,
and his mother, “each of which support[ed] his
assertion that he would not have rejected the plea if he
knew his failure to retreat would be presented to the
jury.” Pet. App. 8a. The court further noted that
although Mr. Anaya’s counsel submitted an affidavit
addressing other claims made by Mr. Anaya, Pet. App.
8a, the affidavit “didn’t even attempt to refute the
accusation that he failed to correctly inform Anaya
about the role of retreat,” Pet. App. 9a. The court also
rejected the State’s argument that Mr. Anaya’s
affidavits were not competent evidence that he would
have accepted the plea offer because they were not
contemporaneous. Pet. App. 13a-16a. The court
reasoned that in Lafler, the Sixth Circuit rejected the
state’s argument that the defendant could not show
prejudice with his own “self-serving statement,”

10
particularly where there was a significant disparity
between the sentence under the plea offer and the
sentence exposure at trial, and that “this rationale was
affirmed by the Supreme Court.” Pet. App. 15a
(quoting Cooper v. Lafler, 376 F. App’x 563, 571 (6th
Cir. 2010)). The court held that Mr. Anaya could
satisfy part one of Frye’s prejudice test with the
affidavits he provided, but did not definitively decide
the issue. Pet. App. 16a. 1
The court also held that Mr. Anaya satisfied the
third prong of the prejudice test—that the end result
would have been more favorable under the plea. Pet.
App. 20a n.75.
With respect to the second prong of the prejudice
inquiry, the Fifth Circuit held that Mr. Anaya “has
compelling arguments, but ultimately the law is
murky.” Pet. App. 13a. To meet his burden to show
that the plea would not have been withdrawn or
rejected, Petitioner pointed to the record—including
the plea offer, the trial briefing and transcripts, and
the State appellate and postconviction briefing—and
Although the Fifth Circuit saw no need to conclusively answer
this question, there can be no real doubt that Petitioner made the
necessary showing that he would have accepted the plea. As the
Fifth Circuit explained, Mr. Anaya submitted multiple affidavits
averring that he would have accepted the plea, and his counsel
“didn’t even attempt to refute the accusation that he failed to
correctly inform Anaya about the role of retreat.” Pet. App. 8a9a. And, as the Fifth Circuit reasoned, Mr. Anaya’s affidavits are
precisely the same type of evidence this Court approved in Lafler.
Pet. App. 15a-16a. Given this Court’s and the Fifth Circuit’s
reasoning, there is no serious question that Mr. Anaya’s multiple
uncontradicted affidavits, corroborated by the facts of his case
and the significant disparity in the two sentences, are sufficient
to show he would have accepted the plea but for counsel’s
misadvice.
1

11
explained that it contained none of the particular facts
or intervening circumstances courts have identified as
indicating the plea would have been withdrawn or
rejected. See Appellant’s Br. 39-41; Appellant’s Reply
Br. 19-23. For instance, there was only one plea offer
that the state never withdrew. The plea expressly took
into account the seriousness of the crime and
Petitioner’s prior felony convictions. The plea also
offered a sentence within the statutory range. There
was no indication that the trial court was aware of the
rejected plea. Nor did the trial court opine on the
appropriateness of the jury’s sentence, or suggest that
a lesser sentence would have been inadequate. The
State did not contest Mr. Anaya’s assertion that there
were no facts or circumstances suggesting the plea
would have been withdrawn or rejected, nor did it
respond with any contrary assertion or identify any
contrary facts or circumstances of its own. See Pet.
App. 17a; Appellee’s Br. 27-29. Indeed, it did not even
argue, as the State, that the State would have
withdrawn the plea. Appellee’s Br. 27-29.
Despite this uncontested showing, the Fifth Circuit
held that “this is where the law gets too murky for
Anaya to convincingly demonstrate an unreasonable
application of federal law.” Pet. App. 17a. The court
conceded that the Fifth Circuit has never addressed
how a defendant can make the second prong of the
prejudice showing under Lafler/Frye—“whether
affirmative evidence is needed.” Pet. App. 19a. The
court also acknowledged that the State did not
“propose an alternative theory or suggest what
evidence would suffice, other than to argue that Anaya
must provide affirmative proof that demonstrates
there are no particular facts or intervening
circumstances.” Pet. App. 17a. And the court declined
to contend with the conflicting decisions of other courts

12
of appeals. Pet. App. 19a. At bottom, then, the Fifth
Circuit’s decision effectively requires additional,
undefined “affirmative proof” even where the
defendant’s characterization of the total absence of
facts or circumstances in the record is undisputed.
REASONS FOR GRANTING THE PETITION
The Court should grant certiorari to review the
Fifth Circuit’s outlier decision holding that in order to
demonstrate prejudice under Lafler and Frye, it is insufficient for a Section 2254 petitioner to identify that
the record before the court contains no indication of
any particular fact or intervening circumstance that
would have caused the plea to be withdrawn or rejected, even where the State does not contest the accuracy of that statement. The Fifth Circuit has thus effectively imposed on habeas petitioners the burden of
offering additional “affirmative proof” of the absence of
any of the myriad possible facts or circumstances that
might lead a plea to be withdrawn or rejected, even
where the record reveals no such facts or circumstances. It is unclear how petitioners might go about
satisfying that burden. But there is no doubt that it
will be insurmountable in practice.
In effectively imposing that undefined requirement, the decision below breaks from the decisions of
several other circuits. Those circuits have correctly
read Frye and Lafler to mean that, in cases where
there are no particular facts or intervening circumstances suggesting that the prosecution would have
withdrawn, or the court would have rejected, the plea
offer in question, the defendant has shown there is a
reasonable probability that the plea would have been
entered.
The decision below also affirms a state-court
decision that is contrary to, and an unreasonable

13
application of, Strickland, Frye, and Lafler. It is wellestablished that Strickland’s prejudice standard
requires a defendant to show only “a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Strickland v. Washington, 466 U.S. 668,
694 (1984).
And Frye and Lafler—which apply
Strickland in the context of rejected plea offers and in
the context of AEDPA review of federal- and statecourt convictions—make perfectly clear that the
requisite prejudice inquiry is an “objective assessment
as to whether or not a particular fact or intervening
circumstance would suffice, in the normal course, to
cause
prosecutorial
withdrawal
or
judicial
nonapproval of a plea bargain.” Frye, 566 U.S. at 149
(Section 2255); see also Lafler, 566 U.S. at 164 (Section
2254). The state court’s requirement of additional,
undefined “affirmative proof” even beyond the
uncontested showing that there are no particular facts
or intervening circumstances suggesting the plea
would not have been entered directly contradicts Frye
and Lafler and turns Strickland’s reasonableprobability standard into a virtual-certainty standard.
Accordingly, the decision below is not only an outlier and wrong, it renders hollow the promise of Frye
and Lafler for a defendant challenging his state-court
conviction on the ground that he received ineffective
assistance of counsel that caused him to reject a plea
offer and receive a much higher sentence at trial.

14
I.

This Court Should Review the Court of Appeals’ Outlier Holding That Lafler and Frye
Require Section 2254 Petitioners to Proffer
Additional, “Affirmative Proof” That the
Plea Would Have Been Entered

To show prejudice from counsel’s deficient
performance leading to a rejected plea offer, a
defendant must establish that there is a “reasonable
probability” that (1) the defendant would have
accepted the plea offer but for counsel’s deficient
performance, (2) the plea would have been entered
without the prosecution’s canceling it or the trial
court’s rejecting it, and (3) that the conviction or
sentence, or both, under the offer’s terms would have
been less severe than under the judgment and
sentence that in fact were imposed. Frye, 566 U.S. at
147; Lafler, 566 U.S. at 164. As to the second required
showing—that the prosecution would not have
withdrawn, and the court would not have rejected, the
plea offer—“[i]t can be assumed that in most
jurisdictions prosecutors and judges are familiar with
the boundaries of acceptable plea bargains and
sentences,” “[s]o in most instances it should not be
difficult to make an objective assessment as to
whether or not a particular fact or intervening
circumstance would suffice, in the normal course, to
cause
prosecutorial
withdrawal
or
judicial
nonapproval of a plea bargain.” Frye, 566 U.S. at 149.
The Lafler Court applied this standard and affirmed
the Sixth Circuit’s holding that the defendant there
had met his burden to show prejudice even without
any affirmative proof of the sort the Fifth Circuit
apparently contemplated. See 566 U.S. at 174 (citing
Cooper v. Lafler, 376 F. App’x at 571-72).

15
Despite that clear guidance, the Fifth Circuit held,
contrary to other circuits, that Lafler and Frye are
“murky” as to the required prejudice showing. Pet.
App. 13a. The Fifth Circuit therefore upheld the state
court’s apparent conclusion that a defendant cannot
meet his burden to show prejudice even where he
identifies that there are no particular facts or
intervening circumstances in the record suggesting
the plea would have been withdrawn or rejected and
the State does not dispute that characterization. The
Fifth Circuit’s decision splits with three other courts of
appeals on its interpretation of Frye and Lafler;
upholds a state-court decision that is contrary to, and
an unreasonable application of, this Court’s clearly
established precedent; and defies common sense,
making it impossible for state-habeas petitioners ever
to prevail on ineffective-assistance claims under Lafler
and Frye.
A.

The Court Of Appeals’ Decision Conflicts with the Decisions of Multiple
Other Circuits.

The Fifth Circuit’s decision creates a circuit conflict
on an important and recurring application of Frye and
Lafler that requires this Court’s intervention. Specifically, the Fifth Circuit’s conclusion that Frye and
Lafler are unclear as to whether “affirmative proof” beyond an uncontested absence of record evidence is required to show prejudice conflicts with the decisions of
three other courts of appeals. Those other circuits correctly understand Frye and Lafler’s prejudice inquiry
to be satisfied by the absence of any particular facts or
intervening circumstances in the record suggesting
the plea would have been withdrawn or rejected.
1. In Cooper v. United States, 660 F. App’x 730,
736-37 (11th Cir. 2016) (per curiam), the defendant

16
challenged his conviction on the ground that his
counsel was ineffective during plea negotiations,
causing him to reject a plea offer. The court held that
the defendant established that the plea would have
been entered because “there is no indication that the
government would have withdrawn the plea,” and “no
indication that the court would not have accepted its
terms.” Id. at 736-37.
In so holding, the Eleventh Circuit agreed with the
magistrate judge, who found that the defendant met
his burden under the second prong of Lafler’s prejudice
test because there was “no indication of any
intervening circumstance that would have caused the
prosecution to withdraw the offer, and the government
does not contend that there was,” Report &
Recommendations, 2:11-CV-14429, Dkt. No. 45 at 19
(S.D. Fla. Mar. 28, 2013), and there was “nothing
unusual about the plea agreement in this case that
would lead to the conclusion that the court would not
have accepted its terms,” id.
2. Similarly, in Faison v. United States, 650 F.
App’x 881, 884-85 (6th Cir. 2016), the Sixth Circuit
held that the defendant “has demonstrated that [counsel’s] alleged actions prejudiced him,” id. at 887. The
court reasoned that “[a]t the rearraignment hearing,
nothing suggested that the court would not have accepted such an agreement or that the agreement was
otherwise unavailable.” Id.
3. Likewise, in United States v. Dickerson, 546 F.
App’x 211, 212 (4th Cir. 2013), the Fourth Circuit held
that the district court abused its discretion in denying
the defendant an evidentiary hearing on his claim that
counsel rendered deficient performance in advising
him to reject a plea offer. Citing Lafler, the court concluded that the defendant made a sufficient showing

17
that, absent counsel’s advice, “he would have accepted
a plea that would have been accepted by the court.” Id.
at 214. The government argued that the defendant
could not make that showing because the plea offer
contained an appellate waiver, the defendant could not
show that he would have accepted an offer with an appellate waiver, and the government would have withdrawn the offer without an appellate waiver. Id. The
court rejected the argument, holding that “there is
nothing in the record to support a finding that the government conditioned its offer on [the defendant’s
agreeing to an appellate] waiver, that counsel deemed
it important in [the defendant’s] case to avoid waiver
of the right to appeal, or that counsel’s advice to reject
the offer was on that basis.” Id.
That these other circuits’ decisions arose under
Section 2255 does not undermine the circuit split. 2
The Eleventh, Sixth, and Fourth Circuits correctly understood Frye and Lafler to hold that pointing to the
absence in the record of any “intervening fact” or “particular circumstance” indicating the plea may have
been withdrawn or rejected is sufficient to show a reasonable probability that the plea would have been entered. The Fifth Circuit, by contrast, incorrectly believed Frye and Lafler to be unclear on that question,
and so held that the state court’s decision could not be
unreasonable. Based on the other circuits’ understanding that Frye and Lafler are clear, if they were
presented with a state-court decision holding that the
absence of any particular facts is insufficient to show
the plea would have been entered, they would likely
hold that such a decision is contrary to Frye and Lafler.
Indeed, for the reasons set forth below (infra 18-24),
Frye was a Section 2255 case, Lafler was a Section 2254 case,
and both cases articulated the same prejudice standard.

2

18
the state court’s decision is plainly contrary to, or at
the very least an unreasonable application of, Frye and
Lafler.
B.

The State Court’s Decision, as Affirmed
by the Fifth Circuit’s Outlier Holding, is
Contrary to, and an Unreasonable Application of, Clearly Established Law

Review is also warranted because the Fifth Circuit
is on the wrong end of the circuit split. Specifically,
the Fifth Circuit’s decision wrongly affirms a statecourt decision 3 that is contrary to, and an unreasonable application of, clearly established precedent of this
Court. A state court’s decision is contrary to clearly
established law where the court “applies a rule different from the governing law set forth in [the Court’s]
cases,” or “decides a case differently than [the Court
has] done on a set of materially indistinguishable
facts.” Bell v. Cone, 535 U.S. 685, 694 (2002); see also
Williams v. Taylor, 529 U.S. 362, 405-06 (2000). And
a state court’s decision is an unreasonable application
of clearly established law where the state court correctly identifies the governing legal principle but unreasonably applies it to the facts of the particular case.
Bell, 535 U.S. at 694. Because the Fifth Circuit found
that Petitioner had established or made a strong showing with respect to every other required element of the
Where, as here, the state court denies a habeas application
without written order, the denial is a decision on the merits
subject to deference under Section 2254. See Cullen v. Pinholster,
563 U.S. 170, 187 (2011). Accordingly, “a habeas court must
determine what arguments or theories . . . could have supporte[d]
the state court’s decision; and then it must ask whether it is
possible fairminded jurists could disagree that those arguments
or theories are inconsistent with the holding in a prior decision of
this Court.” Id. at 188 (internal citation omitted).

3

19
Strickland analysis, the only argument that could
have supported the state court’s decision is the one
that the Fifth Circuit itself identified—i.e., that Petitioner failed to present “affirmative proof” that the
plea would not have been withdrawn or rejected, beyond making an uncontested showing that there were
no facts or circumstances in the record suggesting the
plea would have been withdrawn or rejected. That
conclusion is contrary to, and an unreasonable application of, this Court’s precedent.
1. The requirement that a defendant proffer “affirmative proof” that the plea would have been entered, even where it is undisputed that there are no
particular facts or intervening circumstances suggesting otherwise, is contrary to Frye and Lafler. Those
cases make clear that the prejudice inquiry in the context of rejected pleas is a holistic, objective one intended to identify “intervening circumstances” or “particular facts” that would cause a plea not to be entered.
The Frye Court declined to impose such an insurmountable requirement, holding instead that “[i]t can
be assumed that in most jurisdictions prosecutors and
judges are familiar with the boundaries of acceptable
plea bargains and sentences,” “[s]o in most instances
it should not be difficult to make an objective assessment as to whether or not a particular fact or intervening circumstance would suffice, in the normal course,
to cause prosecutorial withdrawal or judicial nonapproval of a plea bargain.” 566 U.S. at 149.
And in Lafler (a Section 2254 case), the Court expressly affirmed the Sixth Circuit’s holding that the
defendant had shown prejudice—specifically, that the
State would not have withdrawn, and the trial court
would not have rejected, the plea. 566 U.S. at 174 (citing Cooper v. Lafler, 376 F. App’x at 571-72). The

20
Sixth Circuit, in a passage approvingly cited by this
Court, relied only on the defendant’s own testimony
that he would have accepted the plea, and the difference between the sentence the defendant received and
what he would have received under the plea. See
Cooper v. Lafler, 376 F. App’x at 571-72. The Sixth
Circuit also rejected the State’s proffered reason that
the trial court might not have accepted the plea—
there, the defendant’s refusal to admit intent to kill.
See id. Having satisfied itself that the one potential
circumstance in the record did not indicate the plea
would have been rejected, the court did not require the
defendant to demonstrate the absence of any other possible reason the plea might have been rejected. See id.
And the court also rejected the State’s argument that
the defendant was required to produce “additional evidence” beyond his own testimony, explaining that requiring a higher quantum of evidence “would contradict the Supreme Court’s holdings that petitioner need
only establish a ‘reasonable probability’ that the result
would have been different.” Id. at 571. Again, this
Court cited that reasoning in affirming the Sixth Circuit’s prejudice holding. Lafler, 566 U.S. at 174.
Together, Lafler and Frye leave no doubt that a defendant may demonstrate a “reasonable probability”
that the court would have entered the plea simply by
explaining that the record does not contain any evidence of “particular fact[s] or intervening circumstance[s]” that would have caused the plea to be withdrawn or rejected, where the State does not dispute
the absence of any such evidence in the record.
2. That nothing more is required follows from the
well-established Strickland standard, which requires
only a “reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding

21
would have been different.” 466 U.S. at 694. A “reasonable probability” is less than “more likely than not.”
Id. at 693. It is, as this Court has held over and over
again, only “a probability sufficient to undermine confidence in the outcome.” Id.; see, e.g., Sears v. Upton,
561 U.S. 945, 952 & n.8 (2010); Wiggins v. Smith, 539
U.S. 510 534 (2003); Williams, 529 U.S. at 391.
In the context of plea bargains, it is an unreasonable application of Strickland’s reasonable-probability
standard to require “affirmative proof” that the plea
would have been entered where it is undisputed that
there are no facts in the record suggesting the plea
would have been withdrawn or rejected. This Court
has repeatedly recognized that its decisions in this
area are premised on the “simple reality” that plea
bargaining is “central” to the criminal justice system,
because the overwhelming majority of convictions are
the result of plea bargains. See Frye, 566 U.S. at 14344; Lafler, 566 U.S. at 169-70; Padilla v. Kentucky, 559
U.S. 356, 372 (2010). In practice, once a State offers a
plea bargain, there is necessarily a reasonable probability that if the defendant accepts the plea, it will be
entered, barring special circumstances. That follows
from two features of the plea-bargaining system:
First, a prosecutor has an obligation to offer plea terms
that are appropriate in light of the offense, the applicable sentencing scheme, and any other relevant considerations. 4 Second, as this Court has repeatedly recognized (supra 21), the vast majority of criminal cases
See, e.g., Criminal Justice Standards for the Prosecution
Function 3-5.6 (Am. Bar Ass’n 4th Ed. 2017), available at
https://www.americanbar.org/groups/criminal_justice/standards/
ProsecutionFunctionFourthEdition/; Texas Disciplinary Rules of
Professional Conduct 3.09 (Feb. 26, 2019), available at
https://www.texasbar.com/AM/Template.cfm?Section=News_and
4

22
are resolved by guilty pleas, which demonstrates that
as a practical matter trial courts are accepting the
pleas proposed to them. That is no doubt why Lafler
and Frye framed this inquiry in terms of a negative—
the absence of any particular facts or intervening circumstances suggesting that the plea might have been
withdrawn or rejected. Indeed, recognizing these realities, commentators studying Frye and Lafler have catalogued the difficulties of obtaining data or other information with respect to the plea-bargaining process,
and explained that requiring a defendant to offer such
evidence would not only distort the prejudice inquiry,
but also effectively render it impossible to meet the
Lafler/Frye prejudice standard. 5
That is precisely what happened here. Petitioner
made his showing by reviewing the entire record, including the plea offer, the trial briefing and transcripts, and the State appellate and postconviction records, and demonstrating that it contained no particular facts or intervening circumstances suggesting the
plea would have been withdrawn or rejected. See Appellant’s Br. 39-41; Appellant’s Reply Br. 19-23. There
was only one plea offer that the State never withdrew.
_Publications_Home&ContentID=27271&Template=/CM/Conten
tDisplay.cfm.
See Andrea Kupfer Schneider & Cynthia Alkon, Bargaining in
the Dark: The Need for Transparency and Data in Plea
Bargaining, 22 New Crim. L. Rev. 434, 446-49 (2019); Joel
Mallord, Putting Plea Bargaining on the Record, 162 U. Pa. L.
Rev. 683, 696-97 (2014); Jenia Iontcheva Turner, Effective
Remedies for Ineffective Assistance, 48 Wake Forest L. Rev. 949,
970-71 (2013); Carissa Byrne Hessick, Proving Prejudice for
Ineffective Assistance Claims After Frye, 25 Fed. Sent. Rep. 147,
147-48 (2012); Darryl K. Brown, Lafler, Frye and Our StillUnregulated Plea Bargaining System, 25 Fed. Sent. Rep. 131, 132
(2012).
5

23
The plea offer took into account the seriousness of the
crime and Petitioner’s prior felony convictions. The
plea also offered a sentence within the statutory range.
The trial court did opine on the appropriateness of the
jury’s sentence, or suggest that a lesser sentence would
have been inadequate. The State did not contest these
assertions or identify any facts or circumstances to the
contrary. See Pet. App. 17a; Appellee’s Br. 27-29. Neither the Fifth Circuit nor the State even attempted to
articulate what more Petitioner could have done to
meet his burden, Pet. App. 17—whether Petitioner
should have guessed at other potential facts not in the
record, or sought extra-record evidence, such as evidence of the rates of the State’s withdrawal of plea bargains or the rates of the trial court’s rejection of plea
bargains. If the former, proving a negative would presumably require a defendant to imagine every fact
that could possibly lead to withdrawal or rejection of a
plea and rebut each of those facts. If the latter, such
evidence is often nonexistent or nonpublic. The state
court’s decision thus erects a virtually insurmountable
barrier to proving this prong of the prejudice inquiry.
That this requirement is untenable is especially obvious here, in the context of habeas challenges to state
convictions, which of course represent the vast majority of convictions. Defendants rarely have counsel in
state postconviction proceedings. See, e.g., Roe v. Flores-Ortega, 528 U.S. 470, 492-93 (2000). As a result,
defendants likely will not be able to make this showing
in state postconviction proceedings. And, unlike Section 2255, Section 2254 generally limits federal-court
review to the record that was before the state court
that adjudicated the claim on the merits. See 28
U.S.C. § 2254(d)(1); Pinholster, 563 U.S. at 187. In
practice, that means a defendant who was convicted in

24
state court and has an otherwise meritorious ineffective-assistance claim under Frye and Lafler cannot
even argue for an evidentiary hearing in federal court
where he (or, more likely at that stage, his counsel)
could find and introduce “affirmative proof” that the
State would not have withdrawn, and the court would
not have rejected, the plea offer that he would have accepted but for his counsel’s misadvice. That outcome
is an unreasonable application of Strickland, and directly contrary to this Court’s decisions in Frye and
Lafler. It also makes the Lafler/Frye right illusory for
the vast majority of defendants.
C.

This Case is a Good Vehicle to Resolve
an Important and Recurring Question
Under Lafler and Frye

1. This case is an ideal vehicle for the Court to
ensure consistent and correct application of Frye and
Lafler to a recurring question under AEDPA. Because
the Fifth Circuit held, even on state-habeas review,
that
Petitioner’s
counsel
rendered
deficient
performance, Pet. App. 19a, the question presented is
narrow and clearly defined. What is more, the case
presents a pure question of law, because Petitioner’s
sole contention is that he need not have offered further
proof than what he pointed to in the record. Rather, it
is sufficient to show prejudice under a straightforward
application of Frye, Lafler, and Strickland that there
are no intervening circumstances or particular facts
suggesting that the State would have withdrawn, or
the trial court would have rejected, the plea. And, as
explained above (supra 3, 22), it is uncontested that
there are no such particular facts or intervening
circumstances here.
2. Nor does the AEDPA context pose any barrier
to granting certiorari in this case. The Court has not

25
hesitated to grant review in cases where a petitioner
was required to overcome AEDPA standards,
including Section 2254’s contrary to/unreasonable
application clause. See, e.g., Brumfield v. Cain, 576
U.S. 305 (2015); Wood v. Allen, 558 U.S. 290 (2010);
Wiggins, 539 U.S. at 510; Williams, 529 U.S. at 362.
Indeed, Lafler itself was a Section 2254 case. 566 U.S.
at 162. Where, as here, a state court’s decision is
contrary to, or an unreasonable application of, this
Court’s clearly established precedent, review is
warranted to set aside that decision. Lafler and Frye
leave no doubt that a defendant may demonstrate a
reasonable probability that the plea would have been
entered where he establishes that he would have
accepted the plea, there is a significant disparity
between the sentence offered and the sentence
received, and there is no reason to think that the sort
of facts or circumstances discussed in Lafler and Frye
would have caused the plea to be withdrawn or
rejected. Yet the Fifth Circuit has declared that those
decisions are unclear as to the showing necessary to
demonstrate prejudice. Not only is that conclusion
wrong; it will also effectively prevent habeas
petitioners across the country from obtaining relief on
a Frye/Lafler claim under Section 2254. Faced with
such claims, States will undoubtedly point to the
decision below as conclusive evidence that a state
court’s rejection of a defendant’s prejudice showing on
the grounds presented here cannot possibly be
contrary to, or an unreasonable application of, Lafler
and Frye. This Court’s review is warranted.

26
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
GINGER D. ANDERS
ADELE M. EL-KHOURI
Counsel of Record
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVENUE, NW
SUITE 500 E
WASHINGTON, DC 20001
(202) 220-1100
ADELE.EL-KHOURI@MTO.COM

April 12, 2021

APPENDIX

1a
APPENDIX A
No. 18-11203
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
DAVID ABRAM ANAYA,
Petitioner-Appellant,
v.
BOBBY LUMPKIN, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent-Appellee.
Appeal from the United States District Court for the
Northern District of Texas, USDC No. 2:15-CV-234,
Sidney A. Fitzwater, U.S. District Judge
FILED September 25, 2020
Before BARKSDALE, HAYNES, and WILLETT, Circuit Judges.
OPINION
DON R. WILLETT, Circuit Judge:
David Anaya was charged with murder and aggravated assault. He rejected the State’s plea deal
and opted instead for a jury trial. He didn’t deny that
he shot the victim. He insisted instead that he fired
in self-defense. But Anaya’s lawyer did not tell Anaya
that, because he was a felon in possession of a weapon, the jury could consider his failure to retreat under
Texas law. So now Anaya brings a habeas claim for
ineffective assistance of counsel. The district court
denied Anaya relief. Because of the rigorous deference we owe the state court’s judgment on collateral
review, we AFFIRM.

2a
I
Late one night in Potter County, Texas, a group of
five teenagers heard gunshots as they were leaving a
club. They ran to their car, where they found a man,
beaten and bloody, leaning up against it. One of the
teens threw the man off the car so they could leave.
David Anaya left the same club at about the same
time. He noticed a crowd in the parking lot and saw
“flashes of a gun in the air.” A group was “pounding
on somebody with their feet.” Anaya went to investigate. By the time Anaya got close enough to the scene, he found his brother on the ground, brutally
beaten, wounded, and bleeding. Anaya gathered his
brother, put him in the front seat of his car, and put
his brother’s gun in the console. Anaya wanted to
leave before police arrived because he was on parole.
While driving down Amarillo Boulevard, Anaya
pulled up alongside the car full of teens from the club.
One of the teens testified that Anaya accused them of
attacking his brother. Anaya says that the front passenger in the other car was making “aggressive gestures” and that someone in the back seat pointed a
gun at Anaya through the window. Anaya then fired
his brother’s gun at them, he claims, in self-defense.
One of the teen passengers was struck in the temple
and died. The police recovered a black toy gun from
the teenagers’ car, but the owner of the toy gun denied having brandished it. An investigator testified
that the toy gun resembled a semi-automatic gun—its
blue and orange coloring had been scratched off to
make it look real.
The State offered Anaya a plea bargain: 30 years
for murder and 15 years for aggravated assault.
Anaya did not deny the underlying facts in the indictment but claimed he was acting in self-defense.

3a
So Anaya’s discussions with his lawyer, Rus Bailey,
centered on the viability of a self-defense claim at trial. That was Anaya’s only defense. The State provided Bailey with a list of Anaya’s convictions and made
clear it planned to use those convictions at trial to
enhance Anaya’s punishment. Because of those prior
convictions, at the time of the shooting, Anaya was a
felon in possession of a firearm. This meant that the
jury could consider Anaya’s failure to retreat in evaluating the reasonableness of his actions. 1
The jury convicted Anaya of both assault and felony murder. He was sentenced to 40 and 99 years, respectively. Anaya appealed, and the state intermediate appellate court affirmed. The Texas Court of
Criminal Appeals refused Anaya’s petitions for review. And he did not seek certiorari from the Supreme Court of the United States.
Anaya pursued an ineffective assistance of counsel
claim in three state habeas proceedings, the last dismissed as successive. The TCCA denied relief, and
the Supreme Court denied certiorari. 2 All of Anaya’s
state habeas petitions were denied without written
orders. Anaya applied to the federal district court for
habeas relief. 3 The district court adopted the magistrate judge’s written findings, conclusions, and recommendation—the only written opinion in Anaya’s
habeas proceedings—and denied a Certificate of Appealability. We granted Anaya a COA on one issue:
Anaya’s ineffective assistance of counsel claim that
his counsel misdescribed the law of self-defense,
1

Tex. Penal Code Ann. § 9.32(c), (d).

Anaya v. Texas, 577 U.S. 885, 136 S. Ct. 195, 193 L.Ed.2d 154
(2015).
2

3

See 28 U.S.C. § 2254.

4a
which impaired Anaya’s ability to make an informed
decision on the viability of his only defense and the
State’s plea offer.
II
When a state court denies a habeas application
without a written order—as is the case here—that
decision is an adjudication on the merits subject to
deference under 28 U.S.C. § 2254(d). 4 When a district court denies a § 2254 application, we review the
district court’s findings of fact for clear error and its
conclusions of law de novo, “applying the same
standard of review to the state court’s decision as the
district court.” 5 We also review mixed questions of
law and fact de novo. 6
To obtain relief under § 2254(d), Anaya must establish that the state court’s adjudication of his claim
“resulted in a decision that was contrary to, or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States” or “resulted in a decision
that was based on an unreasonable determination of
the facts in light of the evidence presented in the
State court proceeding.” 7
III
The Sixth Amendment right to counsel extends to
the plea-bargaining process, where defendants are
“entitled to the effective assistance of competent

4

Register v. Thaler, 681 F.3d 623, 626 n.8 (5th Cir. 2012).

Robertson v. Cain, 324 F.3d 297, 301 (5th Cir. 2003) (citation
omitted).
5

6

Id.

7

28 U.S.C. § 2254(d).

5a
counsel.” 8 In fact, we have “observed that providing
counsel to assist a defendant in deciding whether to
plead guilty is ‘one of the most precious applications
of the Sixth Amendment.’” 9 That’s because the
overwhelming majority of federal and state convictions are the result of guilty pleas. 10 The Supreme
Court has repeatedly reminded us that, because our
criminal justice system has become “for the most part
a system of pleas, not a system of trials,” the “critical
point for a defendant” is often plea negotiation, not
trial. 11 And because “horse trading between prosecutor and defense counsel determines who goes to jail
and for how long,” plea bargaining “is not some adjunct to the criminal justice system; it is the criminal
justice system.” 12
Anaya’s
ineffective
assistance
of
counsel
claim—based on Bailey’s advice at plea bargaining—is governed by the two-part test established in
Strickland v. Washington. 13 Under Strickland, a defendant who claims ineffective assistance of counsel
Lafler v. Cooper, 566 U.S. 156, 162, 132 S.Ct. 1376, 182
L.Ed.2d 398 (2012) (quoting McMann v. Richardson, 397 U.S.
759, 771, 90 S.Ct. 1441, 25 L.Ed.2d 763 (1970)).
8

United States v. Rivas-Lopez, 678 F.3d 353, 356 (5th Cir. 2012)
(cleaned up) (quoting United States v. Grammas, 376 F.3d 433,
436 (5th Cir. 2004)).

9

Missouri v. Frye, 566 U.S. 134, 143, 132 S.Ct. 1399, 182
L.Ed.2d 379 (2012) (“Ninety-seven percent of federal convictions
and ninety-four percent of state convictions are the result of
guilty pleas.”).
10

Id. at 143–44, 132 S.Ct. 1399 (quoting Lafler, 566 U.S. at 170,
132 S.Ct. 1376).
11

Id. (emphasis in original) (quoting Scott & Stuntz, Plea Bargaining as Contract, 101 Yale L.J. 1909, 1912 (1992)).

12

13

See id. at 140, 132 S.Ct. 1399.

6a
must show: (1) “that counsel’s representation fell below an objective standard of reasonableness,” 14 and
(2) that the deficiency was “prejudicial to the defense.” 15 The inquiry is highly deferential to counsel. 16 And in the habeas context, we do not start with
a clean slate but must give deference to the state
court under § 2254(d). 17 We address each Strickland
prong in turn, applying the requisite “doubly deferential” standard of review “that gives both the state
court and the defense attorney the benefit of the
doubt.” 18
A
First, the performance prong. To show deficient
performance under Strickland, Anaya must show
that Bailey “made errors so serious that counsel was
not functioning as the ‘counsel’ guaranteed by the
Sixth Amendment.” 19 We must “indulge a strong
presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance.” 20
14

466 U.S. 668, 688, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).

15

Id. at 692, 104 S.Ct. 2052.

16
Id. at 690, 104 S.Ct. 2052 (“[C]ounsel is strongly presumed to
have rendered adequate assistance and made all significant decisions in the exercise of reasonable professional judgment.”); see
also Cullen v. Pinholster, 563 U.S. 170, 189, 131 S.Ct. 1388, 179
L.Ed.2d 557 (2011).

See Mejia v. Davis, 906 F.3d 307, 315 (5th Cir. 2018) (citing
Harrington v. Richter, 562 U.S. 86, 105, 131 S.Ct. 770, 178
L.Ed.2d 624 (2011)).

17

18
Burt v. Titlow, 571 U.S. 12, 15, 134 S.Ct. 10, 187 L.Ed.2d 348
(2013) (citation omitted).

United States v. Kayode, 777 F.3d 719, 723 (5th Cir. 2014)
(quoting Strickland, 466 U.S. at 687, 104 S.Ct. 2052).

19

United States v. Kelly, 915 F.3d 344, 350 (5th Cir. 2019)
(quoting Strickland, 466 U.S. at 689, 104 S.Ct. 2052).

20

7a
But counsel’s “[s]ilence” “on matters of great importance, even when answers are readily available,”
is “fundamentally at odds with the critical obligation
of counsel to advise the client of ‘the advantages and
disadvantages of a plea agreement.’” 21 To be sure, in
the habeas world of double deference, “‘the question
is not whether counsel’s actions were reasonable,’ but
‘whether there is any reasonable argument that
counsel satisfied Strickland’s deferential standard.’” 22
Anaya claims that Bailey was silent on a matter of
great importance—Anaya’s entire defense—that
would have radically altered his plea decision. We
agree, and conclude there is no reasonable argument
to the contrary.
Under Texas’s self-defense statute, juries are generally prohibited from considering a defendant’s failure to retreat in assessing the reasonableness of his
belief that deadly force was necessary. 23 But there
are important caveats to that general rule. Relevant
here, it only applies if the actor was “not engaged in
criminal activity at the time the deadly force [wa]s
used.” 24 If the actor was not engaged in criminal activity, the jury “may not consider whether the actor
failed to retreat,” 25 and the actor’s belief that deadly
force was necessary is “presumed to be reasonable.” 26
Padilla v. Kentucky, 559 U.S. 356, 370, 130 S.Ct. 1473, 176
L.Ed.2d 284 (2010) (quoting Libretti v. United States, 516 U.S.
29, 50–51, 116 S.Ct. 356, 133 L.Ed.2d 271 (1995)).

21

Mejia, 906 F.3d at 315 (quoting Harrington, 562 U.S. at 105,
131 S.Ct. 770).
22

23

Tex. Penal Code Ann. § 9.32(d).

24

Id. § 9.32(c) (emphasis added).

25

Id. § 9.32(d) (emphasis added).

26

Id. § 9.32(b)(3) (emphasis added).

8a
In contrast, if the defendant is engaged in criminal
activity at the time force is used, the jury can consider his failure to retreat before using deadly force. 27
And such a person’s belief that deadly force was necessary is no longer presumed reasonable. 28
At the time of the shooting, Anaya was engaged in
criminal activity because he was a felon in possession
of a firearm. As a result: (1) The jury was permitted
to consider his failure to retreat and (2) his belief that
deadly force was necessary was not presumed to be
reasonable. The State made Anaya’s failure to retreat
central to its case, contending that, because Anaya
was driving a car when he fired his gun, he could
have easily retreated.
Anaya claims that his decision to reject the State’s
plea offer turned on the viability of his self-defense
claim. He admitted from the get-go that he shot the
victim, so his whole theory rested on self-defense.
Anaya claims that Bailey told him he had a “viable
defense”—that Bailey would argue Anaya’s conduct
was reasonable because Anaya thought his life was in
danger. But Anaya avers that Bailey never informed
him of the role his failure to retreat would play at
trial under Texas law. In fact, Anaya claims, Bailey
told him that “it did not matter or make a difference
if [Anaya] had the ability to retreat.” Anaya filed affidavits from himself, his wife, mother, and father—each of which supports his assertion that he
would not have rejected the plea if he knew his failure to retreat would be presented to the jury. Bailey
submitted a responsive affidavit and argued that it
was Anaya’s decision to go to trial and that Bailey
27

See id. § 9.32(c).

28

Id. § 9.32(b).

9a
never guaranteed any result. But Bailey’s affidavit
didn’t even attempt to refute the accusation that he
failed to correctly inform Anaya about the role of retreat.
Bailey’s understanding of the self-defense statute
was clearly wrong. But was Bailey’s advice so gravely
in error that he was acting outside the “wide range of
reasonable professional assistance?” 29 Running
throughout Strickland cases is a distinction between
strategic choices, which are “virtually unchallengeable,” 30 and “[a]n attorney’s ignorance of a point of
law.” 31 When ignorance of a key point of law is combined with failure to do basic research, that’s a
“quintessential example of unreasonable performance
under Strickland.” 32
Our Strickland precedent in the context of plea
negotiations is clear that a defendant must have “a
full understanding of the risks of going to trial.” 33
Otherwise, “he is unable to make an intelligent choice
of whether to accept a plea or take his chances in
court.” 34 Plea negotiations are full of high stakes and
hard choices. Pitch perfect counsel is neither expected
nor required. But having competent counsel means
being “aware of the relevant circumstances and the
likely consequences” of going to trial. 35 Counsel is de29

See Kelly, 915 F.3d at 350.

30

Strickland, 466 U.S. at 690, 104 S.Ct. 2052.

Hinton v. Alabama, 571 U.S. 263, 274, 134 S.Ct. 1081, 188
L.Ed.2d 1 (2014).
31

32

Id.

Grammas, 376 F.3d at 436 (quoting Teague v. Scott, 60 F.3d
1167, 1171 (5th Cir. 1995)).
33

34

Id. (quoting Teague, 60 F.3d at 1171).

35

Rivas-Lopez, 678 F.3d at 356; see also

10a
ficient when a defendant charges onward to trial
“with a grave misconception as to the very nature of
the proceeding and possible consequences.” 36
Anaya’s primary support is Padilla v. Kentucky.
There, counsel told the defendant that he wouldn’t be
deported if he pleaded guilty to drug distribution. 37
But the conviction required deportation, so his guilty
plea made “deportation virtually mandatory.” 38 The
Supreme Court found that, because the answer was
readily available and the law was clear, counsel’s
“duty to give correct advice [was] equally clear.” 39
Anaya also directs us to Lafler v. Cooper and Hinton
v. Alabama. In Lafler, the defendant rejected a plea
offer because his counsel advised him that “the prosecution would be unable to establish intent to murder
[the victim] because she had been shot below the
waist.” 40 There, the Supreme Court did no analysis
on the performance prong because all parties agreed
that counsel was deficient. 41 In Hinton, the lawyer
failed to request funding in order to replace an inadequate expert because the lawyer mistakenly believed
he had received all of the funding he could get under

436 (“When the defendant lacks a full understanding of the risks
of going to trial, he is unable to make an intelligent choice of
whether to accept a plea or take his chances in court.” (quoting
Teague, 60 F.3d at 1171)).
Beckham v. Wainwright, 639 F.2d 262, 267 (5th Cir. Unit B
1981).
36

37

Padilla, 559 U.S. at 359, 130 S.Ct. 1473.

38

Id.

39

Id. at 369, 130 S.Ct. 1473.

40

566 U.S. at 161, 132 S.Ct. 1376.

41

Id. at 163, 132 S.Ct. 1376.

11a
Alabama law. 42 A “cursory investigation” would have
revealed that he could be reimbursed for “any expenses reasonably incurred.” 43
Here, Bailey’s performance was deficient and there
can be no reasonable argument otherwise in light of
Padilla, Lafler, and Hinton. 44 Anaya couldn’t fully
understand the risks of rejecting the State’s plea offer
because he didn’t know that his status as a felon in
possession of a weapon would move the goalpost at
trial. Bailey’s silence on a “matter[ ] of great importance” was “fundamentally at odds” with his critical obligation “to advise the client of ‘the advantages
and disadvantages of a plea agreement.’” 45 And Bailey’s failure to advise Anaya on the law of retreat
wasn’t a strategic decision. There were no difficult
questions about how much to investigate or how to
balance competing evidence. 46 Bailey knew Anaya
was a felon in possession of a weapon—thus engaged
in criminal activity—and Bailey failed to advise
Anaya of the crucial difference that fact would make
at trial.
Anaya’s whole defense was self-defense. This was
the only issue at trial. And Bailey’s silence on a central component of the self-defense statute meant that
42

571 U.S. at 274, 134 S.Ct. 1081.

43

Id.

Mejia, 906 F.3d at 315 (explaining 28 U.S.C. § 2254’s standard).
44

See Padilla, 559 U.S. at 370, 130 S.Ct. 1473 (quoting Libretti,
516 U.S. at 50–51, 116 S.Ct. 356); see also id. (noting that, under
Strickland, there is “no relevant difference ‘between an act of
commission and an act of omission.’ ” (quoting Strickland, 466
U.S. at 690, 104 S.Ct. 2052)).
45

46

See Strickland, 466 U.S. at 690–91, 104 S.Ct. 2052.

12a
Anaya couldn’t appreciate the extraordinary risks of
passing up the State’s offer. Under Strickland’s performance prong, Bailey’s representation fell outside
the “wide range of reasonable professional assistance.” 47 Under § 2254(d)’s standard, the contrary
conclusion would be an unreasonable application of
the Supreme Court’s precedent in Padilla, Lafler, and
Hinton.
B
Now, the prejudice prong, viewed again with the
requisite double deference. Here, Anaya’s claim fails.
Under Strickland’s prejudice prong, Anaya must
show that “there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the
proceeding would have been different.” 48 A “reasonable probability” is “a probability sufficient to undermine confidence in the outcome.” 49 It’s “less than a
preponderance of the evidence.” 50
In Missouri v. Frye, the Supreme Court established
a three-part test for demonstrating prejudice in the
context of a rejected plea offer. 51 The defendant must
show that, but for his counsel’s error, there is a “reasonable probability” that (1) the defendant “would
have accepted the earlier plea offer had [he] been afforded effective assistance of counsel”; (2) the “plea
would have been entered without the prosecution
Kelly, 915 F.3d at 350 (quoting Strickland, 466 U.S. at 689,
104 S.Ct. 2052).
47

Lafler, 566 U.S. at 163, 132 S.Ct. 1376 (quoting Strickland,
466 U.S. at 694, 104 S.Ct. 2052).
48

Dale v. Quarterman, 553 F.3d 876, 880 (5th Cir. 2008) (quoting Strickland, 466 U.S. at 693–94, 104 S.Ct. 2052).
49

50

Id. (quoting Strickland, 466 U.S. at 693–94, 104 S.Ct. 2052).

51

Frye, 566 U.S. at 147, 132 S.Ct. 1399.

13a
canceling it or the trial court refusing to accept it, if
they had the authority to exercise that discretion under state law”; and (3) “the end result of the criminal
process would have been more favorable by reason of
a plea to a lesser charge or a sentence of less prison
time.” 52
Here, the parties dispute what evidence is needed
to demonstrate a reasonable probability that these
three parts of the Frye test are satisfied. Anaya has
compelling arguments, but ultimately the law is
murky. Because it’s possible that “fairminded jurists
could disagree” over what is required to demonstrate
prejudice under Frye, Anaya cannot surmount the
hurdle of § 2254(d). 53
We address each part of Frye’s prejudice test in
turn.
1
First, would Anaya have accepted the plea offer?
Anaya argues that his unrebutted affidavit testimony
is sufficient to show a reasonable probability he
would have accepted the plea but for his counsel’s erroneous advice. According to the State, the Supreme
Court made clear in Lee v. United States that this
standard cannot be met based purely on “post hoc assertions from a defendant about how he would have
pleaded but for his attorney’s deficiencies.” 54 Rather,
courts must “look to contemporaneous evidence to
52

Id.

See Harrington, 562 U.S. at 102, 131 S.Ct. 770 (explaining
that § 2254(d) “preserves authority to [provide habeas relief] in
cases where there is no possibility fairminded jurists could disagree that the state court’s decision conflicts with [the Supreme
Court’s] precedents”).
53

54

––– U.S. ––––, 137 S. Ct. 1958, 1967, 198 L.Ed.2d 476 (2017).

14a
substantiate a defendant’s expressed preferences.” 55
So, the State argues, Anaya’s affidavits aren’t competent evidence.
But the State takes the above quotes from Lee out
of context. The full context makes clear that Lee imposed standards for overturning an accepted plea
deal, not standards for obligating the government to
offer again a plea rejected by the defendant. Here’s
the Lee language in context:
Surmounting Strickland’s high bar is never an
easy task, and the strong societal interest in
finality has special force with respect to convictions based on guilty pleas. Courts should
not upset a plea solely because of post hoc assertions from a defendant about how he would
have pleaded but for his attorney’s deficiencies. Judges should instead look to contemporaneous evidence to substantiate a defendant’s
expressed preferences. 56
The State argues that the same considerations
should apply to a defendant, like Anaya, who rejected
his plea. But the State is wrong. We can’t export the
Lee standard—the need for contemporaneous evidence—from the context of “convictions based on
guilty pleas.” Here’s why: The standard for evaluating a Strickland claim when the defendant seeks to
upset a guilty plea was first laid out in 1985 in Hill v.
Lockhart. 57 But, in 2012, the Supreme Court issued
two opinions on the same day—Lafler v. Cooper and
Missouri v. Frye—that governed Strickland analysis
in the context of rejected plea offers. In Frye, the
55

Id.

56

Id. (emphasis added) (cleaned up).

57

474 U.S. 52, 106 S.Ct. 366, 88 L.Ed.2d 203 (1985).

15a
Court was careful to note that Hill was still good law
when applied to upsetting convictions based on accepted pleas. 58 But the Court explicitly disavowed a
single “means for demonstrating prejudice ... during
plea negotiations.” 59 And the Court formulated a
new, unique prejudice test for our context
here—rejected pleas. 60 The Court’s application of that
new prejudice standard in Lafler makes clear that
Lee is inapposite.
In Lafler, the Supreme Court didn’t do its own
prejudice analysis; instead, the Court relied on the
Sixth Circuit’s reasoning under the prejudice prong. 61
There, the defendant relied only on his “uncontradicted” testimony that “had he known that a conviction for assault with intent to commit murder was
possible, he would have accepted the state’s offer.” 62
And the Sixth Circuit rejected Michigan’s argument—identical to the State’s argument here—that
the defendant “cannot show prejudice with his own
‘self-serving statement.’” 63 Moreover, the Sixth Circuit explained that even if the defendant’s assertion
needed independent corroboration, the “significant
disparity between the prison sentence under the plea
offer and exposure after trial lends credence to petitioner’s claims.” 64 The same is true here. And this
rationale was affirmed by the Supreme Court.
58

Frye, 566 U.S. at 148, 132 S.Ct. 1399.

59

Id.

60

Id.

61

Lafler, 566 U.S. at 174, 132 S.Ct. 1376.

Cooper v. Lafler, 376 F. App’x 563, 571 (6th Cir. 2010) (unpublished).
62

63

Id.

64

Id.

16a
Plus, if the Lee Court wanted to augment the
prejudice test articulated in Frye and Lafler, one
would expect the Court to have connected the dots.
But Lee—decided five years after Lafler and
Frye—didn’t even cite Frye and only once cited Lafler.
The Lee dissent, however, heavily discussed both.
And the majority responded in a footnote:
The dissent also relies heavily on [Frye and
Lafler]. Those cases involved defendants who
alleged that, but for their attorney’s incompetence, they would have accepted a plea
deal—not, as here and as in Hill, that they
would have rejected a plea. In both Frye and
Lafler, the Court highlighted this difference....
Frye and Lafler articulated a different way to
show prejudice, suited to the context of pleas
not accepted, not an additional element to the
Hill inquiry. 65
Lee affirmed what Frye and Lafler made clear: Accepted and rejected pleas arise in different contexts
and require distinct tests. So Lee’s requirement for
contemporaneous evidence is simply irrelevant in this
context. There may be other reasons to doubt Anaya’s
affidavits, but their non-contemporaneous nature is
not a problem under Frye and Lafler. Anaya could
potentially satisfy part one of Frye’s prejudice test
with the affidavits he has provided.

Lee, 137 S. Ct. at 1965 n.1 (emphasis in original); see also
Lafler, 566 U.S. at 163–64, 132 S.Ct. 1376 (“In contrast to Hill,
here the ineffective advice led not to an offer’s acceptance but to
its rejection. Having to stand trial, not choosing to waive it, is
the prejudice alleged.”); Frye, 566 U.S. at 148, 132 S.Ct. 1399
(“Hill does not, however, provide the sole means for demonstrating prejudice arising from the deficient performance of
counsel during plea negotiations.”).
65

17a
2
On to part two: Would the plea have been entered?
Under this part of Frye’s test, Anaya must demonstrate that his “plea would have been entered without
the prosecution canceling it or the trial court refusing
to accept it, if they had the authority to exercise that
discretion under state law.” 66 The district court concluded that the record was “silent” on these two questions, so Anaya failed to show a reasonable probability that this part of the Frye prejudice test was satisfied. And this is where the law gets too murky for
Anaya to convincingly demonstrate an unreasonable
application of federal law. Anaya argues that part
two of Frye’s prejudice test is satisfied if there is no
“particular fact” or “intervening circumstance” that
would cast doubt on the presumption that the prosecution would have maintained the offer and the court
would have accepted it. His contention appears to be
that his burden here is simply to point to the record
and show the absence of these particular facts or intervening circumstances. The State’s primary response is that it is Anaya’s burden to show that the
plea would have been entered. But Anaya doesn’t
disagree with the State on who bears the burden; his
fight is over what he needs to show to satisfy that
burden. The State doesn’t propose an alternative
theory or suggest what evidence would suffice, other
than to argue that Anaya must provide affirmative
proof that demonstrates there are no particular facts
or intervening circumstances.
The governing cases are not a paradigm of clarity.
In Frye, the Court explained that if the prosecution
has discretion to cancel an offer or if the trial court
has discretion to refuse it, defendants must show
66

Frye, 566 U.S. at 147, 132 S.Ct. 1399.

18a
“there is a reasonable probability neither the prosecution nor the trial court would have prevented the
offer from being accepted or implemented.” 67 The
Frye Court then provided a framework for conducting
this inquiry:
It can be assumed that in most jurisdictions
prosecutors and judges are familiar with the
boundaries of acceptable plea bargains and
sentences. So in most instances it should not
be difficult to make an objective assessment as
to whether or not a particular fact or intervening circumstance would suffice, in the
normal course, to cause prosecutorial withdrawal or judicial nonapproval of a plea bargain. The determination that there is or is not
a reasonable probability that the outcome of
the proceeding would have been different absent counsel’s errors can be conducted within
that framework. 68
If this were a case involving a non-deferential standard of review, we would need to explore this question
in more depth.
However, we must apply the doubly deferential
standard of § 2254(d) to our Strickland inquiry. And
under § 2254(d), “an unreasonable application of federal law is different from an incorrect application.” 69
To obtain relief, Anaya must show that the state
court’s ruling “was so lacking in justification that
there was an error well understood and comprehended in existing law beyond any possibility for
67

Id. at 148, 132 S.Ct. 1399.

68

Id. at 149, 132 S.Ct. 1399 (emphasis added).

Williams v. Taylor, 529 U.S. 362, 365, 120 S.Ct. 1495, 146
L.Ed.2d 389 (2000) (emphasis in original).
69

19a
fairminded disagreement.” 70 As the Supreme Court
has made clear, this standard is hard to meet “because it was meant to be.” 71 Section 2254(d) authorizes us to grant habeas relief only “in cases where
there is no possibility fairminded jurists could disagree that the state court’s decision conflicts with [the
Supreme Court’s] cases.” 72 That’s the extent of our
authority. 73
We had no trouble concluding that Anaya satisfied
§ 2254(d)’s heavy burden on Strickland’s performance
prong. But here, assuming Anaya’s view of the Frye
framework is correct, it is not “well understood and
comprehended” that defendants bear no burden to
supply affirmative proof that the prosecution would
not withdraw the plea or that the court would have
accepted it. Our own precedent is clear that Anaya
carries the burden to make this showing. 74 But we
have never articulated how a defendant does
so—whether affirmative evidence is needed. And
Anaya points to no published case from any circuit
that absolves the defendant of the need to supply affirmative proof of some kind.
Anaya has no doubt satisfied the third part of the
Frye prejudice test—that “the end result of the criminal process would have been more favorable by reason of a plea to a lesser charge or a sentence of less
70

Harrington, 562 U.S. at 103, 131 S.Ct. 770.

71

Id. at 102, 131 S.Ct. 770.

72

Id.

73

Id.

Rivas-Lopez, 678 F.3d at 359 (“[T]here is a burden on [defendant] to show that there was a reasonable probability that
the prosecution would not have withdrawn the plea offer and
that the court would have accepted its terms.”).
74

20a
prison time.” 75 But because the law on the burden of
proof in part two of Frye’s prejudice test is not so
clear as to foreclose the possibility of fairminded disagreement, we cannot grant Anaya the relief he requests.
IV
For these reasons, we AFFIRM.

See Frye, 566 U.S. at 147, 132 S.Ct. 1399. Part three is easily
satisfied here: The plea offered Anaya 30 years for murder and
15 for aggravated assault. His ultimate sentences were for 40
years and 99 years respectively.
75

21a
APPENDIX B
No. 2:15-CV-234-D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS,
AMARILLO DIVISION
DAVID ABRAM ANAYA, Petitioner,
v.
LORIE DAVIS, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent.
[Filed] August 30, 2018
ORDER
SIDNEY A. FITZWATER,
DISTRICT JUDGE

UNITED

STATES

After making an independent review of the
pleadings, files, and records in this case, the August
3, 2018 findings, conclusions, and recommendation of
the magistrate judge, and petitioner’s August 16,
2018 objection, the court concludes the magistrate
judge’s findings and conclusions are correct. It is
therefore ordered that petitioner’s objection is
overruled, the recommendation of the magistrate
judge is adopted, and the petition for a writ of habeas
corpus is denied. Petitioner’s August 16, 2018 motion
for appointment of counsel is also denied.
Considering the record in this case and pursuant
to Fed. R. App. P. 22(b), Rule 11(a) of the Rules
Governing Section 2254 Proceedings in the United
States District Courts, and 28 U.S.C. § 2253(c), the
court denies a certificate of appealability. The court
adopts and incorporates by reference the magistrate
judge’s findings, conclusions, and recommendation
filed in this case in support of its finding that the

22a
petitioner has failed to show (1) that reasonable
jurists would find this court’s “assessment of the
constitutional claims debatable or wrong,” or (2) that
reasonable jurists would find “it debatable whether
the petition states a valid claim of the denial of a
constitutional right” and “debatable whether [this
court] was correct in its procedural ruling.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000).
If petitioner files a notice of appeal,
( ) petitioner may proceed in forma pauperis on
appeal.
(X) petitioner must pay the $505.00 appellate
filing fee or submit a motion to proceed in forma
pauperis.
SO ORDERED.
August 30, 2018
/s/ Sidney A. Fitzwater
Sidney A. Fitzwater
United States District Judge

23a
APPENDIX C
No. 2:15-CV-234-D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS,
AMARILLO DIVISION.
DAVID ABRAM ANAYA, Petitioner,
v.
LORIE DAVIS, Director, Texas Department of Criminal Justice, Correctional Institutions Division, Respondent.
[Filed] August 3, 2018
FINDINGS, CONCLUSIONS AND RECOMMENDATION TO DENY PETITION FOR A
WRIT OF HABEAS CORPUS
LEE ANN RENO, UNITED STATES MAGISTRATE
JUDGE
Before the Court is the Petition for a Writ of Habeas Corpus by a Person in State Custody filed by petitioner DAVID ABRAM ANAYA. For the following
reasons, petitioner’s habeas application should be
DENIED.
I.
PROCEDURAL HISTORY
On August 13, 2009, petitioner was charged by
grand jury Indictment in Potter County, Texas, with
the first-degree felony offense of murder in violation
of Texas Penal Code § 19.02. State v. Anaya, No.
59,854-A [ECF 14-16 at 9]. The Indictment alleged
petitioner, on or about May 31, 2009:
[D]id then and there intentionally or knowingly cause the death of an individual, namely

24a
Eric Mireles, by shooting him with a firearm.
That same date, the grand jury, by separate Indictment, charged petitioner with the second-degree felony offense of aggravated assault with a deadly
weapon in violation of Texas Penal Code § 22.02.
State v. Anaya, No. 59,877-A [ECF 15-5 at 8]. The Indictment alleged petitioner, on or about May 31,
2009:
[D]id then and there intentionally or knowingly threaten Steven Sifuentez with imminent bodily injury, and did then and there use
or exhibit a deadly weapon, to-wit: a firearm,
during the commission of the assault.
Petitioner was tried in a joint trial before a jury for
the indicted offenses in the 47th Judicial District
Court of Potter County; on October 6, 2010, the jury
found petitioner guilty of both the murder offense and
the aggravated assault with a deadly weapon offense
as alleged in the Indictments. On October 7, 2010, the
jury assessed petitioner’s punishment at 99 years and
40 years confinement, respectively, in the Texas Department of Criminal Justice, Correctional Institutions Division.
Petitioner filed a direct appeal of his convictions
and sentences to the Court of Appeals for the Seventh
District of Texas. On August 15, 2012, the state intermediate appellate court affirmed petitioner’s convictions. Anaya v. State, Nos. 07-10-00462-CR,
07-10-00463-CR. [ECF 15-9 at 66]. On October 30,
2013, the Texas Court of Criminal Appeals (TCCA)
granted petitioner leave to file an out-of-time petition
for discretionary review [PDR] in each case. In re
Anaya, Nos. 80,336-01, 80,336-02 [ECF 15-10]. On
March 12, 2014, the TCCA refused both of petitioner’s petitions. Anaya v. State, PD-1568-13,

25a
PD-1569-13 [ECF 14-8]. 1 Petitioner did not seek certiorari review by filing petitions with the United
States Supreme Court.
Petitioner sought collateral review of his Potter
County convictions by filing state habeas corpus petitions. On April 8, 2015, the TCCA denied petitioner’s
state habeas applications on the merits without written order. In re Anaya, Nos. 80,336-03, 80,336-04
[ECF 15-14; 15-18]. On October 5, 2015, the United
States Supreme Court denied certiorari review of
both of petitioner’s state habeas cases. Anaya v. Texas, 136 S.Ct. 195 (2015). Petitioner attempted to
again challenge his convictions by filing subsequent
state habeas applications. On July 1, 2015, the TCCA
dismissed both writ applications as successive. In re
Anaya, Nos. 80,336-05, 80,336-06 [ECF 15-23; 15-25].
On July 17, 2015, petitioner purportedly placed the
instant federal application for habeas corpus in the
prison mailing system. Petitioner’s application was
received by this Court and files-tamped on July 23,
2015. [ECF 3]. On October 27, 2015, respondent filed
an answer to petitioner’s habeas application opposing
relief. [ECF 13]. On November 9, 2015, petitioner
filed a reply to respondent’s answer. [ECF 16].
II.
FACTUAL HISTORY
The state intermediate appellate court summarized the evidence in petitioner’s case as follows:
In the early morning hours of May 31, 2009,
The record submitted by respondent appears to only include
the PDR refusal as to petitioner’s murder conviction; however,
review of the TCCA website reflects that court refused PDRs in
both cases on March 12, 2014.
1

26a
Angelica Alvarez drove her younger brother
Eloy, her boyfriend Markous Sifuentez, his
younger brother Steven Sifuentez and the victim in this case, Eric Mireles, to an after-hours
club. 2 According to Angelica, upon entering
the club they encountered [petitioner], whom
she did not know, and he warned them not to
cause trouble. She testified that he
name-dropped gang affiliation and asserted
the club was his. Leaving her brother, she and
her passengers left the club to visit a friend’s
house. At approximately 3:30 a.m., they returned to pick up Eloy.
According to the evidence, [petitioner’s]
half-brother, Anthony Escoto, who had been
involved in a fight earlier, fired a gun in the
club parking lot and was jumped and severely
beaten by a group of club patrons. Eloy testified that gunshots caused the patrons to head
to their respective cars and scurry from the
parking lot before police arrived. Eloy, Angelica and Markous ran to Angelica’s car to
leave. 3
As they attempted to leave, Anthony was
leaning against Angelica’s car, bleeding from
wounds he sustained in the melee. Markous
threw him off so they could leave. Angelica
was in the driver’s seat, Markous was in the
front seat, Steven was seated behind Angelica,
Eric was sitting in the middle of the back seat
and Eloy was seated behind Markous. After
Angelica had graduated from high school the day before and
was out celebrating.
2

Steven and Eric had remained in the car when they returned
to the club to pick up Eloy.
3

27a
leaving the parking lot they were driving
along Amarillo Boulevard. Angelica and several of the occupants of her car testified similarly that [petitioner’s] car pulled up beside
her car and one of its occupants shouted at
them about “jumping” his brother. They then
heard gunshots which resulted in Eric being
shot and killed.
[Petitioner]
testified
during
the
guilt/innocence phase. According to his version
of the events, while he was inside the club, he
heard that Anthony was outside fighting and
went to intervene. After that initial fight, [petitioner] went back inside the club until closing time. 4 After the club closed, [petitioner],
his girlfriend and a friend of hers got in his car
to leave. He noticed a crowd gather in the
parking lot and saw “flashes of a gun in the
air.” He observed a group “pounding on somebody with their feet” and exited his car to see
if Anthony was involved. He found Anthony
badly beaten and carried him to his car and
placed him in the front seat. He took Anthony’s gun and placed it on the console between
the seats. Because he was on parole he wanted
to leave before police arrived. He further testified that when he pulled up alongside Angelica’s car, 5 the front passenger was making aggressive gestures and someone in the back
Anthony had been banned from the club and remained outside.
4

The female passenger in [petitioner’s] car testified that [petitioner] wanted to know who attacked his brother and passed
several cars after leaving the club to reach Angelica’s car which
was easily identifiable because it had “Class of ‘09” painted on
the rear window.
5

28a
seat pointed a gun at him through the rear
passenger window. According to his testimony,
he then shot at Angelica’s car to defend himself. During the investigation, a black toy gun
was found under the seat of Angelica’s car.
Eloy testified the gun was his but claimed he
was unaware it was in the car at the time of
the shooting. A Special Crimes Unit investigator testified that prints were not recoverable
from the toy gun. He also testified it resembled
a semi-automatic and that the blue and orange
coloring indicating it was a toy had been
scratched or sanded off to make it look more
like a real weapon.
Markous testified that after they left the club
they drove along Amarillo Boulevard. At one
point he noticed car lights approaching and
observed a red Camaro driven by [petitioner]
pull up beside Angelica’s car. Both cars had
the windows rolled down. [Petitioner] accused
the occupants of Angelica’s car of being the
persons who had “jumped” Anthony and
threatened that if they jumped his brother,
they jump him. He then pointed a gun out the
driver’s side window and fired at Angelica’s
car. Eloy testified that [petitioner] had his left
hand on the steering wheel and fired out the
driver’s window with his right hand. After
shots were fired, Eloy realized that Eric had
sustained a gunshot wound to his right temple
and had fallen onto his lap. Markous instructed Angelica to take off and they drove to
a residence belonging to Eric’s cousin, where
Eric had been living.
They took Eric’s body out of the car and placed
it on the driveway. They then hid Angelica’s

29a
car behind the residence to avoid detection in
case [petitioner] had followed them. Markous
banged on the front door of the residence until
Eric’s cousin answered. She observed the body
on her driveway and called 911. Officers were
dispatched to the residence to investigate at
approximately 4:10 a.m.
After the shooting, [petitioner], at Anthony’s
direction, drove around looking for Anthony’s
girlfriend. When they found her, Anthony got
into her car and left with her. [Petitioner] then
drove with his girlfriend to a park where they
remained until later that morning. After he
drove his girlfriend home, he went home to
rest. An investigation of the shooting led a
member of the Special Crimes Unit to [petitioner’s] home. After being questioned about
the incident at the club, [petitioner] denied
being there; however, he voluntarily went to
the police department to answer questions and
he consented to a search of his car. He was
cooperative until he was informed someone
had been shot following the incident at the
club. He then terminated the interview and
requested counsel. The investigator testified
there was not enough information to hold [petitioner] at that time and he was released.
Following a positive identification by witnesses, an arrest warrant for [petitioner] was issued later that afternoon.
[Petitioner] testified he went to his sister’s
home after leaving the police department and
later had her drop him off at a park so he
could think. He had a duffle bag packed, which
included the gun used in the shooting. He
walked to a nearby gas station and asked

30a
someone with New Mexico license plates for a
ride. He was given a ride to Albuquerque
where he exchanged the gun for lodging. He
remained there until his arrest on August 4,
2009.
Numerous law enforcement officers testified
about the investigation. Special Crimes Unit
investigators determined that Angelica’s car
had two bullet holes in the rear passenger door
and the medical examiner testified that Eric
died from a gunshot wound to the head from
an undetermined range.
[ECF 14-12 at 2-5].
III.
PETITIONER’S ALLEGATIONS
Petitioner contends his confinement is in violation
of the Constitution and laws of the United States because he was denied his right to effective assistance
of counsel at trial. Specifically, petitioner alleges trial
counsel was ineffective because of his failure to:
1. object to the wording of the retreat provision
in the trial court’s instruction on self-defense
in the jury charge;
2. accurately advise petitioner on the applicable law concerning deadly force in defense of
person to enable petitioner to adequately
evaluate the State’s plea offers;
3. request the trial court include an instruction on the justification of “necessity” in the
jury charge; and
4. request the trial court instruct, in the jury
charge, that reasonable doubt as to whether
petitioner acted in self-defense required peti-

31a
tioner be acquitted.
IV.
STANDARD OF REVIEW
Under 28 U.S.C. § 2254(d), a writ of habeas corpus
on behalf of a person in custody under a state court
judgment shall not be granted with respect to any
claim that was adjudicated on the merits in state
court proceedings unless he shows the prior adjudication:
1. resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established federal law, as determined
by the Supreme Court of the United States; or
2. resulted in a decision that was based on an
unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d). A decision is contrary to clearly
established federal law if the state court arrives at a
conclusion opposite to that reached by the United
States Supreme Court on a question of law or if the
state court decides a case differently than the Supreme Court has on a set of materially indistinguishable facts. Williams v. Taylor, 529 U.S. 362,
405-06 (2000); see also Hill v. Johnson, 210 F.3d 481,
485 (5th Cir. 2000), cert. denied, 532 U.S. 1039
(2001). A state court decision will be an unreasonable
application of clearly established precedent if it correctly identifies the applicable rule but applies it objectively unreasonably to the facts of the case. Williams, 529 U.S. at 407-08; see also Neal v. Puckett,
286 F.3d 230, 236, 244-46 (5th Cir. 2002) (en banc per
curiam), cert. denied, 537 U.S. 1104 (2003). A determination of a factual issue made by a state court

32a
shall be presumed to be correct. 28 U.S.C. §
2254(e)(1). The applicant has the burden of rebutting
this presumption of correctness by clear and convincing evidence. Hill, 210 F.3d at 485. When the Texas
Court of Criminal Appeals denies relief on a state
habeas corpus application without written order,
such ruling is an adjudication on the merits that is
entitled to this presumption. Ex parte Torres, 943
S.W.2d 469, 472 (Tex. Crim. App. 1997).
Whether a state court’s decision resulted from an
unreasonable legal or factual conclusion does not require that there be an opinion from the state court
explaining the state court’s reasoning. Harrington v.
Richter, 562 U.S. 86, 98 (2011). Where a state court’s
decision is unaccompanied by an explanation, the
habeas petitioner’s burden still must be met by
showing there was no reasonable basis for the state
court to deny relief. Id. This is so whether or not the
state court decision reveals which of the elements, in
a multi-part claim, it found insufficient. Section
2254(d) applies when a “claim,” not a component of
one, has been adjudicated. Id.
Here, petitioner filed state habeas applications
challenging the constitutionality of his murder and
aggravated assault convictions and sentences alleging the same grounds alleged in the instant federal
habeas petition. On April 8, 2015, the TCCA denied
petitioner’s state habeas applications without written
order. Ex parte Anaya, WR 80,336-03, WR 80,336-04.
The rulings of the TCCA constitute adjudications of
petitioner’s claims on the merits. See Bledsue v.
Johnson, 188 F.3d 250, 257 (5th Cir. 1999). Consequently, this Court’s review is limited to a determination of whether petitioner has shown the state
court’s decisions that petitioner was not denied effective assistance of trial counsel was based on an un-

33a
reasonable determination of the facts in light of the
evidence before the state court, or was contrary to, or
involved an unreasonable application of, clearly established federal law, as determined by the United
States Supreme Court.
V.
MERITS
EFFECTIVENESS OF COUNSEL
In her October 27, 2015 Answer, respondent thoroughly and accurately briefed statutory and case law
regarding the applicable standards of review for
claims of ineffective assistance of counsel. [ECF 13 at
11-12]. The Court will not repeat respondent’s recitations regarding these well-accepted standards of review, except to again note an ineffective assistance of
counsel claim requires petitioner show defense counsel’s performance was both deficient and prejudicial
under the two-pronged standard of Strickland v.
Washington, 466 U.S. 668, 689 (1984). If a petitioner
fails to show either the deficiency or prejudice prong
of the Strickland test, then this Court need not consider the other prong. Id. at 697. Moreover, when a
state prisoner asks a federal court to set aside a conviction or sentence due to ineffective assistance of
counsel, the federal court is required to use the “doubly deferential” standard of review that credits any
reasonable state court finding of fact or conclusion of
law and presumes defense counsel’s performance fell
within the bounds of reasonableness. Burt v. Titlow,
571 U.S. 12, 15 (2013).
As petitioner’s ineffective assistance of counsel
claims were adjudicated on the merits in his state
habeas proceedings, the denials of relief are considered to have been based on factual determinations.
Consequently, these state court adjudications will not

34a
be overturned unless they are objectively unreasonable in light of the evidence presented in the state
court proceedings. Miller-El v. Cockrell, 537 U.S. 322,
340, 123 S. Ct. 1029, 1041 (2003). A state-court factual determination is not unreasonable merely because the federal court would have reached a different conclusion in the first instance. Burt, 134 S. Ct. at
15. Section 2254(e)(1) provides that a determination
of a factual issue made by a state court shall be presumed to be correct. The petitioner has the burden of
rebutting this presumption of correctness by clear
and convincing evidence. Canales v. Stephens, 765
F.3d 551, 563 (5th Cir. 2014). When the Texas Court
of Criminal Appeals denies relief in a state habeas
corpus application without written order, it is an adjudication on the merits and is entitled to this presumption. Ex parte Torres, 943 S.W.2d 469, 472 (Tex.
Crim. App. 1997); Singleton v. Johnson, 178 F.3d 381,
384 (5th Cir. 1999) (recognizing this Texas state writ
jurisprudence).
1. Failure to Object to Retreat Provisions in Jury
Charge Instructions on Self-Defense 6
In the charge to the jury at the close of the
guilt-innocence phase of petitioner’s trial, the trial
court instructed the jury on self-defense and the use
of deadly force in defense of person as follows:
Our law provides that it is a defense to the
The portions of the jury charge here in issue, in both petitioner’s aggravated assault and murder cases, used nearly-identical
language except for substituting the elements of the aggravated
assault offense in place of the elements of the murder offense
where applicable. [ECF 15-5 at 95-98]. Therefore, in addressing
each of petitioner’s grounds, the undersigned will only reference
and/or quote the jury charge in petitioner’s murder case, noting
any other differences in the charges’ language by footnote.
6

35a
offense of Murder if the defendant reasonably
acted in self-defense. The State is not required
to negate the existence of a defense. 7
***
A person is justified in using deadly force
against another if the defendant reasonably
believes the force is immediately necessary to
protect the defendant against the other’s use
or attempted use of unlawful deadly force.
A person is under a duty to retreat to avoid the
necessity of defending himself with deadly
force unless there is evidence before you that
the person using deadly force:
(1) had a right to be present at the location
where the force was used,
(2) did not provoke the person against whom
the force was used, and
(3) was not engaged in criminal activity at
the time the force was used.
[ECF 14-16 at 109-10] (emphasis added). At the time
of the incident in question, the Texas Penal Code
provided a person was justified in using deadly force
against another only under certain limited circumstances, and that:
(c) A person who has a right to be present at
the location where the deadly force is used,
who has not provoked the person against
whom the deadly force is used, and who is not
engaged in criminal activity at the time the
The jury charge in the aggravated assault case included the
language, “however, the State must prove each and every element of the offense beyond a reasonable doubt.” [ECF 15-5 at
96].
7

36a
deadly force is used is not required to retreat
before using deadly force as described by this
section.
Tex. Penal Code Ann. § 9.32(c) (2009). The statute
further provided that if a person was not required to
retreat because he met the conditions under subsection (c), then a jury could not consider that person’s
failure to retreat in determining whether that person
reasonably believed the use of deadly force was immediately necessary to protect that person against
the other’s use or attempted use of unlawful deadly
force. Tex. Penal Code Ann. § 9.32(d) (2009).
During the charge conference, counsel in both of
petitioner’s cases argued that although the retreat
provision in the jury charge “track[ed] the law” or
“track[ed] the statute” of the Texas Penal Code, such
law was unconstitutionally vague because of the language “who is not engaged in criminal activity at the
time the deadly force is used.” [ECF 15-17 at 28-30].
The trial court overruled counsels’ objections.
By his first ground, petitioner argues counsel was
deficient for failing to object to the wording of the retreat provision used by the trial court in its instruction as to when deadly force may be used in defense
of person. Specifically, petitioner argues counsel
should have asserted the objection that the retreat
provision set forth above “did not track the statutory
definition.” Petitioner contends he was prejudiced by
counsel’s failure to assert the “statutory tracking”
objection because the trial court would have sustained counsel’s objection and redrafted the provision
to precisely mirror the statute. Petitioner concludes
not only that counsel’s failure to make such an objection allowed the improperly-worded retreat provision
with regard to the use of deadly force to be presented
to the jury, but also that the inclusion of such a

37a
non-statutory provision constituted “an improper
comment on the weight of the evidence [by the trial
court] that embraced that under all circumstances
petitioner had a duty to retreat.” 8
Petitioner raised this ground in his applications for
state habeas relief. During the state habeas proceedings, counsel filed an affidavit stating, “Defense
counsel did object to the inclusion of duty to retreat
language in the self-defense instruction” and attached the portions of the transcript wherein both
counsel made the unconstitutionally vague objection
to the one sentence of the retreat provision. [ECF
15-17 at 26-30]. The state habeas trial court did not
enter findings of fact or conclusions of law on petitioner’s state habeas applications. The TCCA denied
petitioner’s habeas applications without written orders, determinations on the merits of petitioner’s
claim.
While the retreat provision in the trial court’s jury
charge on the use of deadly force, for the most part,
tracked the language of the statute verbatim, it did
not precisely conform to the language of the statute.
Instead, the charge provision indicated a duty to retreat before using deadly force exists unless certain
circumstances are met while the statute indicates no
duty to retreat exists if these same certain circumstances are met. The undersigned finds this slight
variance in the court’s charge was a distinction
without a difference. However, if counsel had asserted a “statutory tracking” objection to the language of
the provision, there is a reasonable probability the
trial court would have sustained the objection and
It is unclear if petitioner is also contending that the trial court
should not have provided any instruction whatsoever on retreat,
regardless of how it was worded.
8

38a
modified the instruction to precisely match the statutory language. Therefore, for purposes of this ground,
the undersigned will presume, without specifically
finding, petitioner has shown counsel was deficient
for failing to assert a “statutory tracking” objection to
the wording of the retreat provision in the use of
deadly force in defense of person portion of the jury
charge.
Petitioner has not, however, shown he was prejudiced by any deficiency on the part of either counsel
in failing to make a “statutory tracking” objection.
The slight variation in the trial court’s charge did not
improperly impose a “general duty to retreat” as provided under the pre-2007 version of the statute. 9 Cf.
Morales v. State, 357 S.W.3d 1 (Tex. Crim. App.
2011). Nor was the wording of the charge so
non-conforming with the statute that it constituted a
comment on the weight of the evidence by the trial
court. Cf. id. Under either the charge’s language or
the language of the statute, petitioner did not have a
duty to retreat if the provisions applied.
Further, the trial court’s instructions to the jury
immediately after the retreat provision here at issue
clarified:
Therefore, if you find, that the defendant had
a right to be present at the location where the
Prior to 2007, the Texas self-defense statute provided that in
order to establish a valid claim of self-defense, the defendant
had to establish not only that the victim used deadly force
against him, but also that “a reasonable person in the [defendant’s] situation would not have retreated” prior to using deadly
force in response. Tex. Penal Code Ann. § 9.32(a)(2) (West 2006).
This provision was deleted from the statute in 2007 and, in its
place, the Texas Legislature enacted the above quoted sections
9.32(c) and (d) to the Penal Code, providing that a person does
not have a duty to retreat if certain circumstances are met.
9

39a
force was used; did not provoke the person
against whom the force was used and was not
engaged in criminal activity, then the defendant had no duty to retreat.
However, if you find, that the defendant did
not have a right to be present at the location
where the force was used; or did provoke the
person against whom the force was used; or
was engaged in criminal activity, then the defendant did have a duty to retreat; and you
may consider whether the defendant’s failure
to retreat made his conduct under the circumstances as viewed from his stand point reasonable.
These provisions made it clear petitioner had “no duty to retreat” if and when the specified conditions
were met, but had a “duty to retreat” when those
conditions were not met. Petitioner has not demonstrated that even if counsel had made the “statutory
tracking” objection, the objection had been sustained
and the provision on retreat modified to read precisely as the statute is worded, that there is a reasonable
probability that the result of the proceeding would
have been different. Petitioner has not shown he was
prejudiced by trial counsels’ failure to make the specific “statutory tracking” objection. Thus, petitioner
has not demonstrated he was denied effective assistance of counsel with regard to this claim.
Moreover, petitioner has not demonstrated the
state habeas courts’ determinations that petitioner
was not denied effective assistance of counsel with
regard to this issue and under these circumstances
was an unreasonable application of Strickland. A
fair-minded jurist, given the evidence of petitioner’s
guilt, could have reasonably concluded petitioner was
not prejudiced by any deficiency in counsel’s perfor-

40a
mance in this regard or by the inclusion of the challenged language in the charge. Nor has petitioner
shown the state habeas court’s determination of this
ineffective assistance claim was based on an unreasonable determination of the facts in light of the evidence presented in the State court proceeding. See 28
U.S.C. § 2254(d). Petitioner’s claim of ineffective assistance of counsel under Ground One is without
merit and should be denied.
Petitioner’s first and second grounds claim various
error and resultant ineffective assistance of counsel
with regard to the requirement or non-requirement to
retreat when asserting a person is justified in using
force or deadly force against another. Whether there
is or is not a duty to retreat, and whether the actor
does or does not retreat, is simply a fact the jury may
or may not consider (depending upon whether the
various conditions are met) in determining the reasonableness of the actor’s belief that force or deadly
force was immediately necessary to protect the actor
against the other’s use or attempted use of unlawful
force or deadly force. The principal question, first and
foremost, before this jury was whether petitioner was
acting in self-defense when he used force or deadly
force against the victims. In assessing 99-and 40-year
sentences, the jury clearly rejected petitioner’s
self-serving assertion, unsupported by any other evidence and, in fact, contradicted by all of the other
testimony, that his killing of the victim and/or shooting a firearm toward the other vehicle was in
self-defense. The issue of retreat had no bearing on
the verdict because the jury, in all likelihood, did not
reach the issue of the reasonableness of petitioner’s
actions. Therefore, any claims petitioner asserts
herein with regard to the issue of retreat, even if
supported, in all probability, would not have affected

41a
the jury’s verdict because the jury clearly rejected petitioner’s claim of self-defense or any other justification of petitioner’s conduct excluding his criminal responsibility. Even so, the undersigned addresses petitioner’s second claim below.
2. Misadvice Affecting Decision to Reject Plea Offer
On February 22, 2010, the State offered petitioner
plea bargains of thirty (30) years for the murder
charge, and fifteen (15) years for the aggravated assault charge in exchange for his guilty plea in each
case. 10 [ECF 15-17 at 57-58; 15-22 at 49-50]. Petitioner avers he rejected the State’s offers “and opted
to take his chances at trial because he believed he
was justified in using deadly force in terms of self defense.” [ECF 4 at 8]. Petitioner acknowledges it was
his decision to reject the State’s proposed offers, but
argues his decision was based upon incorrect legal
advice he received from defense counsel. Consequently, by his second ground, petitioner argues he
was denied effective assistance of counsel during the
pre-trial plea negotiations.
Petitioner contends trial counsel’s representation
was deficient because he erroneously told petitioner
“it didn’t make any difference if he retreated” because
“the duty to retreat did not make a difference in determining whether petitioner was justified in using
deadly force.” 11 [ECF 4 at 8-9]. Petitioner maintains
that if he had been advised as to the correct state of
The offer included that petitioner would be assessed a $5,000
fine for the murder charge and a $2,500 fine for the aggravated
assault with a deadly weapon charge.
10

Petitioner does not allege defense counsel advised him to reject the plea offer or advised petitioner could not be convicted at
trial if he asserted self-defense and deadly force in defense of
person.
11

42a
the law, i.e., that if certain conditions were not present, then a jury could consider his failure to retreat
in determining the reasonableness of his belief that
the use of deadly force was immediately necessary, he
then “would have accepted the State’s plea bargain
offer” instead of proceeding to trial. [ECF 4 at 9]. Petitioner thus argues he was prejudiced by defense
counsel’s deficient performance because but for counsel’s incorrect legal advice regarding the relevance of
retreat and its possible bearing on whether petitioner
was justified in using deadly force in self-defense, he
would have accepted the State’s plea offers and received lesser sentences of 30- and 15-years.
Petitioner raised this ground in his applications for
state habeas relief. During the state habeas proceedings, petitioner filed his own affidavit as well as affidavits from his then wife, his mother, and his father,
stating defense counsel advised he thought that petitioner was justified in using deadly force in
self-defense, that petitioner had a “ ‘viable defense’ in
taking [his] case before a jury,” and that whether petitioner retreated or not was irrelevant to whether he
was justified in using deadly force in self-defense.
[ECF 15-17 at 51-56; 15-22 at 43-48]. The affiants
further attested that if defense counsel had properly
advised that the law “required” petitioner to retreat
before using deadly force, petitioner would have accepted the State’s plea offers of 30- and 15-year sentences. In response to petitioner’s claims and tendered affidavits, defense counsel submitted his own
affidavit stating:
I fully advised [petitioner] on all possible outcomes of a trial. I advised him of the entire
range of punishment and all possible defenses.
I also explained the risks associated with taking a case to trial. I never guaranteed any re-

43a
sult to [petitioner]. I presented [petitioner]
with all plea bargain offers from the state and
thoroughly explained them to him. “It was
[petitioner’s] decision to have his cases tried to
a jury.”
[ECF 15-17 at 27]. The state habeas trial court did
not enter findings of fact or conclusions of law on petitioner’s state habeas applications. The TCCA denied
petitioner’s habeas applications without written orders, thereby finding petitioner’s ineffective assistance of counsel claim on this basis was without merit.
“If a plea bargain has been offered, a defendant
has the right to effective assistance of counsel in considering whether to accept it.” Lafler v. Cooper, 566
U.S. 156, 168 (2012). Here, in the four (4) affidavits
submitted by petitioner in the state habeas proceedings, the affiants all attested defense counsel was of
the opinion petitioner was justified in using deadly
force in self-defense and that his failure to retreat
was irrelevant in making that determination (and
presumably advised petitioner and the affiants of his
position). In his responsive affidavit, defense counsel
did not specifically address petitioner’s allegation of
misadvice concerning the law on retreat and the use
of deadly force. Instead, defense counsel globally asserted he explained all plea offers and (properly) advised petitioner on all possible defenses, the range of
punishment, the risks associated with taking a case
to trial, and all possible outcomes of a trial, without
ever guaranteeing any result to petitioner. Petitioner,
however, points to a statement defense counsel made
during closing argument at the guilt-innocence phase
of trial as conclusive evidence that counsel misadvised petitioner as to the law on the use of deadly
force and the duty to retreat during pretrial plea ne-

44a
gotiations. During closing counsel stated:
The point is with this whole thing, when it
comes to murder and deadly force and reasonable belief – [w]hen it talks about [petitioner’s] reasonable belief their life was in
danger, the self-defense issue kicks in, but
they have the duty to retreat if three things
crop up; they shouldn’t have been there, they
provoked it, they were engaged in criminal activity at the time it was done. But in this situation I don’t care if you believe any of those
things apply....[Because] I don’t think it makes
any difference because a bullet will chase you
wherever you go, and it doesn’t take much to
turn a barrel. So the big question comes down
to this is, you’ve got one man that tells you he
fired a gun at that car so they wouldn’t shoot
him....But you still have a right to defend
yourself if you reasonably believe that you
might be killed yourself. [ECF 14-19 at 76-77].
The undersigned does not interpret counsel’s argument as a misstatement of the law, i.e., that the
failure to retreat is irrelevant in determining whether a person was justified in using deadly force in
self-defense. Rather, the undersigned interprets
counsel’s statement simply to be that even if the jury
found petitioner was under a duty to retreat by finding certain conditions were present, that his belief
that deadly force was immediately necessary was still
reasonable, despite his failure to retreat, because
even if he had attempted to retreat, he still could
have easily been shot and he reasonably believed he
would be shot or killed if he did not fire his gun. This
statement is not evidence, much less conclusive evidence, that counsel misadvised petitioner or the affiants as to the law during pre-trial plea negotiations.

45a
However, there are four (4) unrebutted, albeit
self-serving, affidavits before the Court that defense
counsel did, in fact, misadvise petitioner on the state
of the law with regard to retreat, in using deadly
force in self-defense and, possibly, as to the likelihood
of success in asserting such a justification for petitioner’s actions. Although the undersigned is of the
opinion petitioner has not proven counsel’s advice
with respect to the use of deadly force in defense of
person was so seriously misleading or incorrect that
he was not functioning as the counsel guaranteed petitioner by the Sixth Amendment or that such representation fell below an objective standard of reasonableness, the undersigned will find, solely for purposes
of this discussion, that counsel’s pre-trial representation of petitioner was deficient.
Even assuming defense counsel was deficient in
his representation of petitioner during the plea negotiation process by incorrectly advising petitioner
when and if retreat is relevant in determining when a
person is justified in using deadly force against another, petitioner has failed to show he was prejudiced
by any such deficiency. To show prejudice from ineffective assistance of counsel where a plea offer has
been rejected because of counsel’s deficient performance, petitioner must demonstrate a reasonable
probability:
1. he would have accepted the earlier plea offer had he been afforded effective assistance of
counsel;
2. the plea would have been entered without
the prosecution canceling it or the trial court
refusing to accept it, if they had the authority
to exercise that discretion under state law; and
3. that the end result of the criminal process

46a
would have been more favorable by reason of a
plea to a sentence of less prison time.
See Missouri v. Frye, 566 U.S. 134, 147-49 (2012).
Here, petitioner and the other affiants on his behalf, all attested petitioner would have accepted the
State’s offer of 30- and 15-year sentences and pleaded
guilty had defense counsel properly advised that the
law “required” petitioner to retreat before using
deadly force. Again, the law is not so “black and
white;” it does not simply require one to retreat before using deadly force, and does not mandate a conviction if one does not retreat before using deadly
force. Only if none of the deadly force justifications
apply and a person is thus not justified in using
deadly force, is that person required to retreat. See
Hill v. State, 2010 WL 2540603 *4 (Tex.App.--Austin
June 25, 2010, no pet.). Moreover, the failure to retreat is then only considered in determining the reasonableness of the person’s belief that the use of
deadly force was immediately necessary. If petitioner
had been advised of this precise state of the law, it is
questionable whether he would have accepted the
State’s 30-year plea offer for his guilty plea on this
basis alone.
Moreover, by his sworn testimony, petitioner insisted he did not place the gun in the console for easy
access or pursue the victims to exact revenge for his
brother. Petitioner further insisted he had a legitimate right to be present at the location where he
used deadly force. Petitioner maintained he did not
provoke the victim, did not swerve his car toward the
victims’ car, and was not otherwise engaging in
criminal activity at the time he used deadly force. Petitioner insisted that although he fired shots directly
toward the victims’ car at close range, he did not intend or attempt to shoot anyone in the other car [ECF

47a
14-19 at 61], but that he did reasonably believe
deadly force was immediately necessary to protect
himself against the victims’ use or attempted use of
unlawful deadly force. Petitioner insisted that every
other witness, all of whom testified in direct conflict
with petitioner’s testimony, including certain passengers in his car, were lying. Petitioner also testified
he did not have time to stop the car to end the encounter, and that even if he had stopped the car, the
individuals in the other car still would have shot petitioner. Petitioner further testified he had never told
anyone he believed he was defending himself by
shooting at the other car until he took the stand at
trial and testified as such. [ECF 14-19 at 66].
Based on petitioner’s insistence at trial of no wrong
doing on his part and that he was justified in using
deadly force against the victim, petitioner’s assertion
that he would have accepted the State’s offer and entered guilty pleas to murder and aggravated assault
is questionable and even highly suspect. Based on petitioner’s testimony, the Court questions the credibility of petitioner’s self-serving, after-the-fact affidavits
that he would have pled guilty to murder and aggravated assault “3g” offenses, and accepted 30- and
15-year sentences without a chance to appeal instead
of proceeding to trial to challenge the charges.
Lastly, the Court notes petitioner does not request
as relief in this proceeding that the State be ordered
to reoffer the plea agreement, or that he be resentenced to 30- and 15-year sentences as if he had accepted the proposed plea offer and pleaded guilty. Instead, petitioner asserts his conviction should be
overturned and his case remanded to the state trial
court for a new trial. A request that he be returned to
the position he was in but for counsel’s deficient advice would more effectively support his assertion that

48a
he would have accepted the State’s plea offer if counsel had advised his failure to retreat could be considered by the jury in determining the reasonableness of
his beliefs and actions.
The undersigned finds petitioner has not shown a
reasonable probability that he would have accepted
the State’s 30-year plea offer for murder had counsel
advised that the circumstances in which it is statutorily permissible to defend oneself with deadly force
were not present here, that petitioner thus had a duty to retreat, and that his failure to retreat could be
considered by the jury in determining whether he
reasonably believed deadly force was immediately
necessary to protect himself against the victim’s use
of unlawful deadly force.
Petitioner must also demonstrate a reasonable
probability that his guilty plea and the recommended
sentences would have been entered without the prosecution canceling it or the trial court accepting it. As
noted in Frye, 566 U.S. at 148-49, this showing is of
particular importance because a defendant has no
right to be offered a plea, see Weatherford v. Bursey,
429 U.S. 545, 561 (1977), nor a federal right that the
judge accept it. Santobello v. New York, 404 U.S. 257,
262 (1971). Although citing Lafler v. Cooper, 566 U.S.
156 (2012) in both his memorandum and his reply,
petitioner does not reference or address his requirement to make this showing. Moreover, the record is
silent as to this issue and reflects no indication as to
whether the State would have proceeded with their
plea offers in this “particularly egregious” case or
whether the state trial court would have accepted a
30- and 15-year sentences in exchange for petitioner’s
guilty pleas. Petitioner has not demonstrated a reasonable probability that his guilty pleas and the

49a
recommended sentences would have been entered. 12
Petitioner has not demonstrated that absent counsel’s constitutionally deficient advice, he would have
accepted the State’s offer to plead guilty to the offenses of murder and aggravated assault and receive
30- and 15-year unappealable sentences rather than
going to trial to contest the charges. Nor has petitioner demonstrated any guilty pleas and the recommended sentences would have been entered. Petitioner has not demonstrated he was prejudiced by
any misadvice from defense counsel during the
pre-trial plea process.
Again, this Court is delegated the duty of determining whether the state habeas courts reasonably
concluded counsel was not deficient or that petitioner
was not prejudiced by any deficiency on counsel’s
part. In that regard, petitioner contends the “[s]tate
habeas fact finding that petitioner’s trial attorney did
not give him false advice is unreasonable.” Petitioner
argues there is “clear and convincing evidence that
the State court’s fact finding is completely wrong on
this issue,” citing counsel’s closing argument and petitioner’s submitted affidavits as evidence that counsel firmly believed retreat was a non-issue in whether
petitioner was justified in using deadly force in
self-defense and so advised petitioner. [ECF 4 at 9].
Petitioner contends he has presented “overwhelming
evidence” that “the State court was clearly unreasonable” in finding counsel gave petitioner “correct
advice on the issue.” [ECF 4 at 9-10].
Petitioner must also show a reasonable probability that the
end result of the criminal process would have been more favorable by reason of a plea to a sentence of less prison time. As petitioner received 99- and 40-year sentences for his conduct, this
showing can be made.
12

50a
This Court is unable to determine if the state habeas courts denied petitioner’s claim on the deficiency
prong or on the prejudice prong of the Strickland test,
or both. It is clear, however, that the state courts’
resolution of petitioner’s claim did not require the
courts make a factual finding as to the precise advice
given by defense counsel to petitioner concerning retreat, or his advice as to whether petitioner was justified in using deadly force in self-defense. Petitioner’s
family member affidavits, and his own, do not conclusively establish the state courts’ decision to deny relief on this ineffective assistance of counsel claim was
based on an unreasonable determination of the facts,
or was contrary to or involved an unreasonable application of Strickland. Petitioner has not made the
necessary showing to meet the AEDPA standard for
granting federal habeas relief. See 28 U.S.C. §
2254(d). Petitioner’s claim of ineffective assistance of
counsel under Ground Two is without merit and
should be denied.
3. Failure to Request Instruction on “Necessity” in
the Jury Charge
As noted previously, during closing argument defense counsel stated:
What would have happened if [petitioner] had
slammed on the brake? The gun still could
have gone off. Sped up? The gun could have
still gone off. Because guns are used by line of
sight and it’s not because of your sight. It’s
whatever they are aimed at. And it doesn’t
take much to turn a gun.
***
The point is with this whole thing, when it
comes to murder and deadly force and reasonable belief – [w]hen it talks about [peti-

51a
tioner’s] reasonable belief their life was in
danger, the self-defense issue kicks in, but
they have the duty to retreat if three things
crop up; they shouldn’t have been there, they
provoked it, they were engaged in criminal activity at the time it was done. But in this situation I don’t care if you believe any of those
things apply....[Because] I don’t think it makes
any difference because a bullet will chase you
wherever you go, and it doesn’t take much to
turn a barrel. So the big question comes down
to this is, you’ve got one man that tells you he
fired a gun at that car so they wouldn’t shoot
him.
[ECF 14-19 at 76-77].
By his third ground, petitioner argues defense
counsel was deficient for failing to request the trial
court include an instruction on the justification defense of “necessity” in the jury charge. 13 Petitioner
argues “[i]t was objectively unreasonable not to request the necessity instruction because it was the
only defensive instruction that conformed with trial
counsel’s [above-quoted closing] argument ... that a
Section 9.22 of the Texas Penal Code, addressing Necessity as
a justification excluding criminal responsibility, provided, at the
time of petitioner’s charged offense:
13

Conduct is justified if:
(1) the actor reasonably believes the conduct is immediately
necessary to avoid imminent harm;
(2) the desirability and urgency of avoiding the harm clearly
outweigh, according to ordinary standards of reasonableness,
the harm sought to be prevented by the law proscribing the
conduct; and
(3) a legislative purpose to exclude the justification claimed for
the conduct does not otherwise plainly appear.

52a
person’s duty to retreat makes no difference.” Petitioner maintains that “if the given jury charge on self
defense was correct ... the only way petitioner could
have been acquitted according to his counsel’s closing
argument was to have found him justified by a necessity defense.” [ECF 4 at 11]. Petitioner appears to
argue he was prejudiced by petitioner’s failure to request a jury instruction on necessity because “[t]he
trial court would have been required to give this instruction if requested by trial counsel” and, based on
petitioner’s testimony “that he was in imminent fear
for his life when someone pointed a gun at him, along
with the evidence ... that a toy BB gun ... was in fact
discovered in the backseat of the vehicle where the
victim was seated clearly shows that a jury would
have found the possibility of this defense viable.”
[ECF 4 at 10, 11-12].
Petitioner raised this ground in his applications for
state habeas relief. In his affidavit submitted during
state habeas proceedings, defense counsel stated:
I did not request a necessity instruction in the
Jury Charge because after carefully reviewing
the facts of the case and consulting co-counsel
I did not see a legal basis for a necessity instruction in the Jury Charge.
[ECF 15-17 at 27]. The state habeas trial court did
not enter findings of fact or conclusions of law on petitioner’s state habeas applications. The TCCA denied
petitioner’s habeas applications without written orders, determinations on the merits of petitioner’s
claim.
The defense of necessity allows for “the situation
where physical forces beyond the actor’s control rendered illegal conduct the lesser of two evils.” United
States v. Bailey, 444 U.S. 394, 410 (1980). The de-

53a
fense is designed to spare a person from punishment
if he “reasonably believed that criminal action was
necessary to avoid a harm more serious than that
sought to be prevented by the statute defining the offense.” Id. However, if there was a “reasonable, legal
alternative to violating the law, ‘a chance both to refuse to do the criminal act and also to avoid the
threatened harm,’ the defense will fail.” Id. (citations
omitted).
Here, petitioner appears to argue he was forced to
violate the law, i.e., shoot three (3) rounds from a
firearm at an occupied vehicle in close proximity to
prevent the greater harm of a firearm he testified he
viewed in the vehicle from possibly being fired toward
his vehicle. Even assuming as true petitioner’s testimony that he observed a firearm inside the vehicle
with which he was driving parallel at night, there
were multiple reasonable and legal alternatives
available to petitioner rather than reaching into the
console of the car, obtaining a firearm and raising it
to fire multiple rounds into the other vehicle. Because
petitioner had legal alternatives to breaking the law,
his conduct was not justified by the doctrine of necessity.
Petitioner has not demonstrated that if such a request had been made, the trial court would have included an instruction on “necessity” in the jury
charge. When the use of deadly force in self-defense is
the conduct that is allegedly “immediately necessary”
under the necessity defense, the defense of necessity
does not apply, and any entitlement to a jury instruction is determined by section 9.32 (self-defense) or
section 9.33 (defense of a third person). See Whipple
v. State, 281 S.W.3d 482, 503 (Tex. App.–El Paso
2008, pet. ref’d). Moreover, counsel’s arguments during closing, even if construed as an argument for a

54a
necessity defense, did not constitute evidence and
would not have warranted an instruction on necessity. As the evidence did not raise the defensive issue of
necessity and, even if it had, the defense of necessity
would not have been applicable under Texas law,
counsel cannot be faulted for not requesting a jury
instruction on necessity, i.e., for performing a meritless and fruitless act.
Petitioner has not shown counsel was deficient for
failing to request the trial court include an instruction on necessity in the jury charge. Nor has petitioner shown he was prejudiced by trial counsel’s
failure to request a defensive instruction for necessity. Namely, petitioner has not demonstrated it is
reasonably likely that the outcome of the case would
have been different if defense counsel had requested
an instruction on necessity. Not only is it unlikely the
trial court would have granted such a request, but it
is also not reasonably likely the jury would have given any merit to such an instruction based on the totality of the evidence presented at trial and the jury’s
complete rejection of petitioner’s self-defense justification, as evidenced by the jury sentencing petitioner
to 99 years.
Moreover, petitioner has not demonstrated the
state habeas courts’ determination that petitioner
was not denied effective assistance of counsel with
regard to this issue was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the United States Supreme Court, or was based on an unreasonable determination of the facts in light of the evidence presented in the State court proceeding. See 28 U.S.C. §
2254(d). Petitioner’s claim of ineffective assistance of
counsel under Ground Three is without merit and
should be denied.

55a
4. Failure to Request Instruction on “Reasonable
Doubt” as to Self-Defense
At the time of petitioner’s offense and at the time
of his trial, section 2.03(d) of the Texas Penal Code
provided:
If the issue of the existence of a defense is
submitted to the jury, the court shall charge
that a reasonable doubt on the issue requires
that the defendant be acquitted.
At the conclusion of the guilt-innocence phase of petitioner’s trial, the trial court submitted the issue of
whether petitioner acted in self-defense and was justified in using deadly force to the jury. In its charge to
the jury, the trial court instructed, as relevant:
Our law provides that it is a defense to the offense of Murder if the defendant reasonably
acted in self-defense. The State is not required
to negate the existence of a defense. 14
***
Now if you find from the evidence, beyond a
reasonable doubt that on or about the 31st day
of May, 2009, in Potter County, Texas, the defendant, DAVID ABRAN ANAYA, did then
and there knowingly or intentionally cause the
death of an individual, namely, Eric Mireles,
by shooting him with a firearm then you will
find the defendant guilty. Unless you so find
from the evidence beyond a reasonable doubt
thereof, you will acquit the defendant and say
Again, the charge in the aggravated assault case added the
language, “however, the State must prove each and every element of the offense beyond a reasonable doubt.” [ECF 15-5 at
96].
14

56a
by your verdict “Not Guilty.”
Or if you find from the evidence beyond a
reasonable doubt that on or about the 31st
day of May, 2009, in Potter County, Texas, the
defendant, David Abran Anaya, did then and
there cause the death of an individual, namely
Eric Mireles, by shooting him with a firearm,
but you further find from the evidence that
the Defendant reasonably believed as
viewed from his standpoint alone, that
deadly force when and to the degree used,
if it was, was immediately necessary to
protect himself against the use or attempted use of unlawful deadly force by
Eric Mireles or another individual, you
will acquit the defendant of the offense of
murder.
***
The burden of proof in all criminal cases rests
upon the State throughout the trial and never
shifts to the defendant.
All persons are presumed to be innocent and
no person may be convicted of an offense unless each element of the offense is proved beyond a reasonable doubt.... The law does not
require a defendant to prove his innocence or
produce any evidence at all. The presumption
of innocence alone is sufficient to acquit the
defendant unless the jurors are satisfied beyond a reasonable doubt of the defendant’s
guilt after careful and impartial consideration
of all the evidence in the case.
The prosecution has the burden of proving the
defendant guilty and it must do so by proving
each and every element of the offense charged

57a
beyond a reasonable doubt and, if it fails to do
so, you must acquit the defendant.
***
In the event you have a reasonable doubt as to
the defendant’s guilt after considering all the
evidence before you, and these instructions,
you will acquit him and say by your verdict
“Not Guilty.”
[ECF 14-16 at 109-12] (emphasis added). As seen
above, the trial court did not specifically instruct the
jury that if there was “a reasonable doubt” on the
self-defense or use of deadly force issues, that petitioner was to “be acquitted.” Instead, the trial court
instructed the jury that if it found “beyond a reasonable doubt” that petitioner met the self-defense and
use of deadly force provisions, that it must acquit petitioner.
Petitioner contends the trial court failed to instruct
the jury, “specifically in the paragraph applying the
law of self defense, to acquit should there be reasonable doubt with respect to any defense.” [ECF 4 at 15].
Citing section 2.03(d), petitioner states it is “clear
and without ambiguity that a defendant is entitled to
a reasonable doubt instruction ... on self defense.”
[ECF 4 at 14]. Petitioner argues the jury charge references to reasonable doubt “in proving the elements
of a crime or in general to a person’s guilt/innocence
was insufficient” to ensure the jury knew it had “a
duty to acquit [petitioner] if there [was] a reasonable
doubt as to ... self defense.” [Id.]. Petitioner contends
the jury charge in the self-defense application section
“should have stated if a reasonable doubt existed on
the issue of self defense the jury should give the defendant the benefit of the doubt and acquit.” [Id.]
By his fourth ground, petitioner argues counsel

58a
was deficient because he failed to request the trial
court instruct the jury that “if they had a reasonable
doubt as to if petitioner acted in self defense” they
should acquit petitioner. [ECF 3 at 7]. Petitioner
contends he was prejudiced by defense counsel’s failure to request such an instruction because such a request would have been granted, and the charge would
have included the reasonable doubt instruction in the
self-defense paragraphs. Petitioner appears to argue
that the “conspicuous absence” of an explicit reasonable doubt instruction in the self-defense paragraphs
may have caused the jury to infer that the reasonable
doubt standard requiring acquittal was not applicable
to the self-defense issue. Petitioner maintains counsel’s deficiency “deprived petitioner of the fundamental right to have his self defense claim decided fairly
by an impartial jury.” [ECF 4 at 16]. Petitioner concludes there is a reasonable probability that but for
defense counsel’s deficiency, the outcome of his trial
would have been different.
Petitioner did not raise this claim until his 5th and
6th state habeas applications, which were dismissed
by the state court as abusive/successive; therefore,
this claim is unexhausted and procedurally barred
from consideration by this Court. Petitioner asserts
this Court should, nonetheless, hear his claim under
Martinez v. Ryan, 566 U.S. 1 (2012) and Trevino v.
Thaler, 569 U.S. 413 (2013). In Trevino, the United
States Supreme Court held that the Texas procedural
bar on successive or subsequent state habeas applications “will not bar a federal habeas court from hearing a substantial claim of ineffective assistance at
trial if, in the initial-review collateral proceeding,
there was no counsel or counsel in that proceeding
was ineffective.” Trevino, 569 U.S. at 429 (quoting
Martinez v. Ryan, 566 U.S. at 17). Here, petitioner

59a
proceeded pro se in his state collateral habeas proceedings and was not represented by counsel.
Considering petitioner’s unexhausted claim of ineffective assistance of trial counsel, the Court finds it
should be denied for lack of merit. The Court
acknowledges there is a reasonable probability that if
trial counsel had requested the trial court include the
precise instruction mandated by section 2.03(d) in the
jury charge, that the trial court would have granted
counsel’s request and included such an instruction in
the jury charge. Therefore, for purposes of this discussion, the Court will presume petitioner has shown
counsel was deficient for failing to request the precise
instruction.
Petitioner has not shown, however, that he was
prejudiced by trial counsel’s failure to request the additional instruction. The trial court’s charge, although not precisely stating the jury must acquit petitioner if it had “reasonable doubt” on his self-defense
theory or whether he was justified in using deadly
force, did state the jury must acquit petitioner if it
found “beyond a reasonable doubt” that petitioner
met the self-defense and use of deadly force provisions. As noted by respondent, a fair reading of the
entire charge made it clear reasonable doubt related
to self-defense as well as all other issues. Moreover,
in its closing statement, the State acknowledged it
had the burden of proof in the case and specifically
had to disprove petitioner’s claim of self-defense.
When considered with the overwhelming evidence of
petitioner’s guilt, petitioner cannot show any deficiency on the part of defense counsel in failing to request this specific instruction prejudiced him, i.e., the
Court finds no reasonable probability that the jury
would have found petitioner acted in self-defense or
was justified in using deadly force and would have

60a
acquitted petitioner.
Moreover, petitioner has not demonstrated the
state habeas courts’ determination that petitioner
was not denied effective assistance of counsel with
regard to this issue was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the United States Supreme Court, or was based on an unreasonable determination of the facts in light of the evidence presented in the State court proceeding. See 28 U.S.C. §
2254(d). Petitioner’s claim of ineffective assistance of
counsel under Ground Four is without merit and
should be denied.
VI.
RECOMMENDATION
For the above reasons, it is the RECOMMENDATION of the United States Magistrate Judge to the
United States District Judge that the petition for a
writ of habeas corpus filed by petitioner DAVID
ABRAM ANAYA be DENIED.
VII.
INSTRUCTIONS FOR SERVICE
The United States District Clerk is directed to
send a copy of this Findings, Conclusion and Recommendation to each party by the most efficient means
available.
IT IS SO RECOMMENDED.
ENTERED August 3, 2018
/s/ Lee Ann Reno
Lee Ann Reno
United States
Magistrate Judge

61a
* NOTICE OF RIGHT TO OBJECT *
Any party may object to these proposed findings,
conclusions and recommendation. In the event parties wish to object, they are hereby NOTIFIED that
the deadline for filing objections is fourteen (14) days
from the date of filing as indicated by the “entered”
date directly above the signature line. Service is complete upon mailing, Fed. R. Civ. P. 5(b)(2)(C), or
transmission by electronic means, Fed. R. Civ. P.
5(b)(2)(E). Any objections must be filed on or before the fourteenth (14th) day after this recommendation is filed as indicated by the “entered”
date. See 28 U.S.C. § 636(b); Fed. R. Civ. P. 72(b)(2);
see also Fed. R. Civ. P. 6(d).
Any such objections shall be made in a written
pleading entitled “Objections to the Findings, Conclusions and Recommendation.” Objecting parties
shall file the written objections with the United
States District Clerk and serve a copy of such objections on all other parties. A party’s failure to timely
file written objections shall bar an aggrieved party,
except upon grounds of plain error, from attacking on
appeal the unobjected-to proposed factual findings,
legal conclusions, and recommendation set forth by
the Magistrate Judge and accepted by the district
court. See Douglass v. United Services Auto. Ass’n, 79
F.3d 1415, 1428-29 (5th Cir. 1996) (en banc), superseded by statute on other grounds, 28 U.S.C. §
636(b)(1), as recognized in ACS Recovery Servs., Inc.
v. Griffin, 676 F.3d 512, 521 n.5 (5th Cir. 2012); Rodriguez v. Bowen, 857 F.2d 275, 276-77 (5th Cir.
1988).

62a
APPENDIX D
No. 18-11203
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
DAVID ABRAM ANAYA,
Petitioner-Appellant,
v.
BOBBY LUMPKIN, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent-Appellee.
[FILED November 12, 2020]
Before BARKSDALE, HAYNES, and WILLETT,
Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is
DENIED.

